19In The

B3 Supreme Court of the United States
Achashverosh adnah Ammiyhuwd,
Petitioner,
v.

Michael R. Pompeo, United States Secretary Of
State, etal.,
Respondents.
On Writ of Certiorari to the United States
Court of Appeals for the Seventh Circuit
APPENDIX TO THE
PETITION FOR A WRIT OF CERTIORARI

n
‘j

Achashverosh Adnah
Ammiyhuwd
In Propria Persona
“Transient Foreigner”
In c/o 2700 Valparaiso St. P.O.
Box 1542, Non-Domestic
Without U.S. 28 U.S.C. 1746(1)
Valparaiso, Indiana Zip Code
Exempt [DMM 602 1.3e(2)]
Phone - (443) 350-4567
Achashverosh@hotmail. COM
Biblical Ambassador Dual
Israelite-American National
Republic

DECEIVED
AU0 22 2019

ISggBgg f

APPENDIX TO THE PETITION FOR A WRIT
OF CERTIORARI
TABLE OF CONTENTS
Page
APPENDIX A: Order of the United
States Court of Appeals for the
Seventh Circuit, Dated July 23, 2019..

la

APPENDIX B: Order of the United
States Court of Appeals for the
Seventh Circuit, Dated June 24, 2019..

2a

APPENDIX C: Order of the United
States Court of Appeals for the
Seventh Circuit, Dated June 24, 2019...

5a

APPENDIX D: Order of the United
States District Court for the
Northern District of Indiana, Dated
January 17, 2019......................................

6a
i

APPENDIX E: Order of the United
States District Court for the
Northern District of Indiana, Dated
January. 10, 2019 —................................

8a

APPENDIX F: Third Amended Verified,
Sovereign Immunity; Writ of Habeas
Corpus Complaint for Declaratory
And, Injunctive Relief; Facial Attack
On Federal Statute 28 U.S.C. § 1746,
From Custody, Slavery; Substantive,
Procedural Due Process And Equal
Protection Alternative Relief Demand
Filed January 16, 2019...................... .

11a

APPENDIX TO THE PETITION FOR A WRIT
OF CERTIORARI
TABLE OF CONTENTS
Page
APPENDIX G: United States of America
Passport Application Attachment Form,
November 5, 2018 .............. ..........

48a

APPENDIX H: Legal-Name Corrction
Declaration & Publication (Fort Mill,
South Carolina-Republic) Affidavit, May
29, 2012..................... ..................... .................

88a

APPENDIX I: Chief Lawful Ambassador
Sovereign & Self Determination Hebrew
Israelite American National Republic
Universal National Identification _______

.92a

APPENDIX
J:
United
States
Department Of State December 19, 2018
Presentment Of Significant Restraint
and Slavery Inside The District Of
Columbia, Federal Territories, And
Enclaves Within The States, “THE
FEDERAL ZONE” Pursuant To 28
U.S.C. § 1746(2)................................ .

93a

App. la
Appendix A
UNITED STATES COURT OF APPEALS FOR
THE SEVENTH CIRCUIT

No. 19-1159

Achashverosh Adnah Ammiyhuwd.,
Petitioner-Appellant

/
■l

v.
MICHAEL R. POMPEO, Secretary
of State, et al.,
Respondents-Appellees.

Decided and filed on July 23, 2019

Before:,Michael S. Kanne, Amy C. Barrett
Michael B. Brennan

ORDER
. ORDER .
On consideration of the petition for rehearing
filed by Petitioner-Appellant on July 8, 2019, all
of the Judges on the original panel have voted to
deny rehearing.
Accordingly, the petition for rehearing is
DENIED.

/

UNPUBLISHED
App. 2a
Appendix B
UNITED STATES COURT OF APPEALS FOR
THE SEVENTH CIRCUIT

No. 19-1159

Achashverosh Adnah Arrimiyhuwd.,
Petitioner-Appellant,
v.
MICHAEL R. POMPEO, Secretary
of State, et al.,
Respondents-Appellees.

Decided and filed on June 24, 2019

Before: Michael S. Kanne, Amy C. Barrett,
Michael B. Brennan

ORDER
ORDER
Federal officials denied Achashverosh Adnaih
Ammiyhuwd’s application for a passport
designating him as an ambassador or diplomat
and identifying him as a dual citizen of the

App. 3a
United States and the “Israelite-American
national republic.” Alleging that this decision
effectively placed him in “Federal custody and
slavery,” he petitioned for a writ of habeas
corpus under 28 U.S.C. § 2241. He also asserted
under Bivens v. Six Unknown Named Agents of
Federal Bureau of Narcotics, 403 U.S. 388 (1971),
and 42 U.S.C. §1985, that employees at a federal
court house violated his constitutional rights in

* We have agreed to decide this case without oral
argument because the appeal is frivolous. FED. R. APP. P.
34(a)(2)(A).

Obstructing his first attempt to file his petition.
The district court denied the petition because
Ammiyhuwd was not in the custody of the
respondents and because he could not use a
petition for a writ of habeas corpus to bring his
civil
rights
claims.
The
court
advised
Ammiyhuwd that he would need to file new law
suits (one for each of the unrelated sets of
allegations and defendants) and, for each, pay the
filing fee for civil actions rather than the $5.00
fee for habeas petitions.
On appeal, Ammiyhuwd maintains that he is
in custody within the meaning of § 2241 because
the refusal to issue him a passport is a “restraint”
on his liberty. But Ammiyhuwd is not in federal
prison, nor is he on probation or subject to the

App. 4a
other formal restraints that have been recognized
as “custody.” See Jones v. Cunningham, 371 U.S.
236, 243 (1963); see also Maleng v. Cook, 490 U.S.
488, 490-93 (1989); Virsnieks v. Smith, 521 F.3d
707, 717-18 (7th Cir. 2008) (discussing what
constitutes “custody”).
Ammiyhuwd also asserts that he should have
been permitted to proceed on the constitutional
claims that he asserted in his petition. But the
district court was correct to dismiss those claims
without prejudice. “When there isn’t even an
indirect effect on duration of punishment," a
petition under § 2241 cannot be Used to raise civil
rights claims. Robinson v. Sherrod, 631 F.3d
839,840-41 (7th Cir. 2011); Glaus v. Anderson,
408 F.3d 382,386-90 (7th- Cir. 2005). Further
more, Ammiyhuwd paid the filing fee for a
postconviction action, not a civil action, so he was
not entitled to bring the constitutional claims
without first paying the proper fee or applying
for pauper status. See 28 U.S.C. §§ 1914(a), 1915.
Finally, Ammiyhuwd has submitted a number
of filings to this court, but it is unclear whether
he seeks any relief. To the extent he seeks relief
based on those filings, his request is DENIED.
We have considered Ammiyhuwd’s other
contentions, but none merits discussion. We
MODIFY
the judgment
to
show
that
Ammiyhuwd’s petition is DISMISSED and
AFFIRM it as modified.

CERTIFIED COPY
App. 5a
Appendix C
Courts 6f/jjkBJ>oale.fp]r^'BQ f

SDTOivth dfeujlr3-'''

UNITED STATES COURT OF APPEALS FOR
THE SEVENTH CIRCUIT

No. 19-1159

Achashverosh Adnah Ammiyhuwd.,
Petitioner-Appellant,
v.
MICHAEL R. POMPEO, Secretary
of State, et al.,
Respondents-Appellees.

Decided and filed on June 24, 2019

Before: Michael S. Kanne, Amy C. Barrett,
Michael B. Brennan

ORDER

FINAL JUDGMENT
We MODIFY the judgment to show that
Ammiyhuwd’s petition is DISMISSED and
AFFIRM it as modified, in accordance with the
decision of this court entered on this date. The
petitioner-appellant should bear all costs
associated with this appeal.

App. 6a
Appendix D
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
HAMMOND DIVISION

No. 2:19-CV-3 JVB

Achashverosh Adnah Ammiyhuwd.,
Petitioner-Appellant,
v.
MICHAEL R, POMPEO, Secretary
of State, et al.,
Respondents-Appellees,

Filed on January 17, 2019

ORDER

ORDER
On January 10, 2019, this Court entered an
order denying pro se Petitioner Achashverosh
Adnah Ammiyhuwd’s petition for a writ of
habeas corpus and dismissing his other claims.
He has now filed a motion (DE 11) for

App. 7a
reconsideration of that order but his motion
doesn’t present any convincing arguments that
the Court’s decision was wrong. Accordingly, the
motion is DENIED.
SO ORDERED on January 17, 2019.
s/ Joseph S. Van Bokkelen
Joseph S. Van Bokkelen
United States District Judge

App. 8a
Appendix E
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
HAMMOND DIVISION
No. 2:19-CV-3 JVB
Achashverosh Adnah Ammiyhuwd.,
Petitioner-Appellant,
y.

MICHAEL R. POMPEO, Secretary
of State, et al.,
Respondents Appellees.
Filed on January 10, 2019

ORDER
ORDER
Pro se litigant Achashverosh Adnah
Ammiyhuwd has filed a second amended
petition for a writ of habeas corpus under 28
U.S.C. § 2241 together with claims for:
damages under 42 U.S.C. § 1985 and Bivens v.
Six Unknown Named Agents, 403 U.S. 388

App. 9a
(1971); a declaratory judgment; a permanent
injunction; and review of agency action (DE 5).
He named as responents/defendants the United
States Secretaries of State and Homeland
Security, the director of the “New Hampshire
Passport Agency,” and the United States of
America (the “Federal Defendants”), as well as
the Clerk of the Court for the Northern District
of Indiana, and two clerk’s office employees (the
“Clerk’s Office Defendants”). He paid only the
$5 filing fee applicable to habeas actions rather
than the fees applicable to all other civil actions:
the $350 filing fee and $50 administrative fee
provided for in 28 U.S.C. § 1914 and the Judicial
Conference Schedule of Fees issued in
accordance with that statute.
Pursuant to 28 U.S.C. § 2242, an application
for a writ of habeas corpus must allege, among
other things, the facts concerning the
applicant’s commitment or detention and the
name of the person who has custody over him.
Mr. Ammiyhuwd’s pleading does not allege any
facts showing that he is currently committed or
detained or that he is in the custody of any of
the defendants he names. Because it appears
from his application that he is not entitled to a
writ of habeas corpus, no writ or order to show
cause will issue. See 28 U.S.C. § 2243.
Moreover, with regard to his other claims, Mr.
Ammiyhuwd has brought unrelated claims

App. 10a
against different defendants. His claims against
the Federal Defendants relate to the failure to
issue a passport to him showing his alleged
status as an ambassador or diplomat and his
nationality as “Israelite-American national,”
whereas his claims against the Clerk’s Office
Defendants relate to a clerk’s refusal to file and
issue summonses and allegations that he was
illegally searched and seized at the clerk’s office.
Mr. Ammiyhuwd’s claims against the Federal
Defendants belong in a separate suit from his
claims against the Clerk’s Office Defendants.
See George v. Smith, 507 F.3d 605, 607 (7th Cir.
2007). If Mr. Ammiyhuwd still wishes to
proceed, he many not sue the Federal
Defendants and the Clerk’s Office Defendants in
the same suit and must pay $400 in filing fees
for each new suit he files.1
For the foregoing reasons, Mr. Ammiyhuwd’s
petition for a writ of habeas corpus is DENIED
and the remainder of this action is DISMISSED
WITHOUT PREJUDICE.
SO ORDERED on January 10, 2019.
s/ Joseph S. Van Bokkelen
Joseph S. Van Bokkelen
United States District Judge

1Any new complaint Mr. Ammiyhuwd files must comply
with Federal Rule of Civil Procedure 10 and Northern
District of Indiana Local Rule 5-4, including Rule 5-4(a)(5).

App. 11a
Appendix F
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF INDIANA
HAMMOND DIVISION
No. 2:19-CV-3 JVB
MICHAEL RICHARD POMPEO, U.S.
SECRETARY OF STATE,
KIRSTJEN NIELSEN, SECRETARY,
DEPARTMENT
OF HOMELAND SECURITY,
JOSEPH S. VAN BOKKELEN, JUDGE,
ROBERT N. TRGOVICH, CLERK OF COURT
TIFFANY ROGERS, DIVISION MANAGER,
KIM UNKNOWN LAST NAME CLERK,
and
MATTHEW WHITAKER, U.S. ATTORNEY
GENERAL,
Respondents / Plaintiffs,
Filed on January 16, 2019
THIRD AMENDED VERIFIED PETITION
FOR WRTT OF HABEAS CORPUS AND
COMPLAINT FOR DECLARATORY AND
TNJITNCTTVE RELIEF PREDICATE TO
DEMAND FOR DAMAGES OF INJURIES
WTTH INCORPORATED PREVIOUS
FTLED DISCLOSURE OF INTERESTED
PARTIES AND APPENDIX TO ADD
JUDGE JOSEPH S VAN BOKKELEN

App. 12a
Rerum natura, and sui generis IsraeliteAmerican
national
Achashverosh
Adnah
Ammiyhuwd, (“Rerum natura, and sui generis
Chief Ambassador/Diplomat Ammiyhuwd”), by
limited appearance files the instant Third
Amended Petition for Writ of Habeas Corpus, 18
U.S.C. §§ 241 and 18 U.S.C. 242 and 42 U.S.C. §
1985 Complaint for Declaratory and Injunctive
Relief predicate to Demand for ancillary and/or
consequential
damages of Injuries, with
incorporated previous filed Disclosure of
Interested Parties and Appendix to add Judge
Joseph Van Bokkelen seeking review of an
adverse agency action, under 28 U.S.C.§1331
(federal question) and Article III, § 2 (complete
diversity), with the Administrative Procedure
Act, 5 U.S.C. §702 et seq; 28 U.S.C. §2201
(Declaratory Judgment Act), and 8 U.S.C. §
1101(a)(14) (21) (denial of rights of a “transient
foreigner” “non-residence” Israelite-American
national republic United States1). Not subject to
the jurisdiction of United States2* United States3*
or United States0. See Exhibit B, (Doc. 2 Appxs.
6-25). See Wolff v. McDonnell, 418 U.S. 539
(1974).
1. 2 Corinthians 5:20 (KJV) “Now then we are
ambassadors for Christ, as though God did
beseech you by us: we pray you in Christ's stead,
be ye reconciled to God.” “And for me, that
utterance may be given unto me, that I may open

App. 13a
my mouth boldly, to make known the mystery
of the gospel, 20 For which I am an
ambassador in bonds: that therein I may speak
boldly, as I ought to speak.” Ephesians 6:19-20
(KJV). It’s OK to practice (Ahayah) G_d's law
without a license, Luke 11:52, Most High
creator’s Law was here first! "There is a higher
loyalty than loyalty to this country, loyalty to
God” U.S, v. Seeger, 380 U.S. 163, 172, 85 S.
Ct. 850, 13 L. Ed. 2d 733 (1965).
I. JURISDICTION AND VENUE
Pursuant to 7 U.S.C. § 63, it is hereby
declared that the law of agent and
principal shall apply and that service upon
one is service upon another.
2. Jurisdiction lies under 28 U.S.C. §§2241
(habeas corpus);
1331(federal question),
Article III, § 2 (complete diversity), 2201 et
seq. (Declaratory Judgment Act), 18 U.S.C. §§
241 and 18 U.S.C. 242 (Deprivation of rights
under color of law), 42 U.S.C. § 1985
(Conspiracy in disguise as united States of
America), 8 U.S.C. §1101(a) (14) (21) (denial of
rights and privileges as a “transient foreigner”
“non-residence” Israelite-American national
republic United States1). See Exhibit B, (Doc.
2 Appxs. 6-25). See Wolff v. McDonnell, 418
U.S. 539 (1974).
3. Rerum natura, and sui generis “transient
foreigner” “non-residence” Israelite-American
national republic Chief Ambassador/Diplomat

App. 14a

on the front cover of his Unite States1 Passport
and his nationality as “Israelite-American
national”
on
second
page
(Nationality/Nationalite/Nacionalidad) of his
Unite States1 Passport, which is the subject of
the instant action, was made at the National
Passport Center in Sterling, Virginia, New
Hampshire Region, within the jurisdiction of the
Court.
4. The denial of rerum natura, and sui generis
“transient foreigner” “non-residence” IsraeliteAmerican national republic Chief Israelite
Ambassador/Diplomat Ammiyhuwd’s application
for a United States1 passport depicting his
political status as “Ambassador or Diplomatic”
and his nationality as “Israelite-American
national” imposes significant restraints on his
liberty, religious liberty and other fundamental
rights which are not shared by the populace at
large. This constitutes custody because of their
invalid prison regulations, within the meaning of
Jones v. Cunningham., 371 U.S. 236, 240 (1963),
for purposes of 28 U.S.C. §2241, 18 U.S.C. § 242
and Commerce Claus.
II. THE PARTIES
5. Petitioner/Plaintiff “transient foreigner n u nonresidence” rerum natura, and sui generis Hebrew
Israelite-American national Chief Israelite
Ambassador/Diplomat
Achashverosh
Adnah
Ammiyhuwd is a Non-Statutory United States1
Citizen. He was born in Ohio republic on January

App. 15a

January 17, 1962. Not subject to the jurisdiction
of United States2* United States 3> or United
States0. See Exhibit B, (Doc. 2 Appxs. 6-25). Id.
6.
Respondent/Defendant
United
States
statutory
citizen
Matthew
Whitaker
(“hereinafter Respondent/Defendant or United
States statutory citizen Whitaker”) is a final
policymaker, the U.S. Attorney General
(Executive Branch) of the United State0 located
inside the Federal territories and enclaves of
the United States at 950 Pennsylvania Avenue,
NW, Washington, DC 20530-0001, with a
governmental
(Congressional
Legislative
Branch) widespread, facially, void ab initio for
vagueness, overbreadth, suspect classification
corporate rules, regulations, policy, custom
and/or practice as applied to “transient
foreigner” “non-residence” rerum natura, and
sui generis Hebrew Israelite-American national
Chief
Israelite
Ambassador/Diplomat
Achashverosh Adnah Ammiyhuwd, sued here in
his official capacity for injunctive relief and in
his individual capacity for ancillary monetary
damages due to their invalid prison regulations.
See (Doc 2 Appxs. 1).
7.
Respondent/Defendant
United
States
statutory citizen Michael Richard Pompeo
(“hereinafter Respondent/Defendant or United
States statutox-y citizen Pompeo”) is a final
policymaker, the duly appointed Secretary
(Executive Branch) of the United State0 located
inside the Federal territories and enclaves of

App. 16 a
the United States at 2201 C Street NW,
Washington, DC 20530, with a governmental
(Congress Legislative Branch) widespread,
facially,
void
ah initio
for vagueness,
overbreadth, suspect classification corporate
rules, regulations, policy, custom and/or practice
as applied to “transient foreigner” “non­
residence” rerum natura, and sui generis
Hebrew Israelite-American national Chief
Israelite Ambassador/Diplomat Achashverosh
Adnah Ammiyhuwd, sued here in his official
capacity for injunctive relief and in his individual
capacity for ancillary monetary damages due to
their invalid prison regulations. See (Doc 2
Appxs. 1).
8. Respondent/Defendant United States statutory
citizen
Tyrone
Shelton,
(“hereinafter
Respondent/Defendant
or
United
States
statutory citizen Shelton”) the Regional Director
(Executive Branch) of the United State® located
inside the Federal territories and enclaves of the
United States at 31 Rochester Ave. Portsmouth,
New Hampshire 03801, with a governmental
(Congress Legislative Branch) widespread,
facially,
void
ab
initio
for
vagueness,
overbreadth, suspect classification adopted
corporate rules, regulations, policy, custom
and/or practice as applied to “transient foreigner”
“non-residence” rerum natura, and sui generis
Hebrew Israelite-American national
Chief
Israelite Ambassador/Diplomat Achashverosh

App. 17a
sued here in his official capacity for injunctive
relief and in his individual capacity for ancillary
monetary damages due to their invalid prison
regulations. See (Doc 2 Appxs. 1).
9.
Respondent/Defendant
United
States
statutory citizen Kirstjen Nielsen (“hereinafter
Respondent/Defendant or
United
States
statutory citizen Nielsen”) is a final
policymaker, the Secretary of the Department
of Homeland Security (Executive Branch) of the
United State0 located inside the Federal
territories and enclaves of the United States at
3801 Nebraska Ave NW, Washington D.C., USA
20016, with a governmental (Congress
Legislative Branch) widespread, facially, void
ab initio for vagueness, overbreadth, suspect
classification
adopted
corporate
rules,
regulations, policy, custom and/or practice as
applied to “transient foreigner” “non-residence”
rerum natura, and sui generis Hebrew
Israelite-American national Chief Israelite
Ambassador/Diplomat Achashverosh Adnah
Ammiyhuwd, sued here in his official capacity
for injunctive relief and in his individual
capacity for ancillary monetary damages due to
their invalid prison regulations. See (Doc 2
Appxs. 1).
10.
Respondent/Defendant United
States
statutory
citizen
Robert
N.
Trgovich
(“hereinafter Respondent/Defendant or United
States statutory citizen Trgovich”) is a final

App. 18a
policymaker, the Clerk of Court for the (Judicial
Branch) United States District Court for the
Northern District of Indiana Hammond Division
of the United State0 located inside the Federal
territories and enclaves of the United States at
204 South Main Street, South Bend, IN 46601,
with a governmental (Congress Legislative
Branch) widespread, facially, void ab initio for
vagueness, overbreadth, suspect classification
adopted corporate rules, regulations, policy,
custom and/or practice as applied to “transient
foreigner” “non-residence” rerum natura, and sui
generis Hebrew Israelite-American national
Chief
Israelite
Ambassador/Diplomat
Achashverosh Adnah Ammiyhuwd, sued here in
his official capacity for injunctive relief and in
his individual capacity for ancillary monetary
damages due to their invalid prison regulations.
See (Doc 2 Appxs. 9).
11. Respondent/Defendant Tiffany Rogers
(“hereinafter Respondent/Defendant or United
States statutory citizen Rogers”) Division
Manager for the (Judicial Branch) United
States District Court for the Northern District
of Indiana Hammond Division of the United
States0 located inside the Federal territories
and enclaves of the United States at 5400
Federal
Plaza,
Suite 2300,
Hammond,
IN 46320, with a governmental (Congress
Legislative Branch) widespread, facially, void
ab initio for vagueness, overbreadth, suspect

App. 19 a
classification
adopted
corporate
rules,
regulations, policy, custom and/or practice as
applied to “transient foreigner” “non-residence”
rerum natura, and sui generis Hebrew IsraeliteAmerican
national
Chief
Israelite
Ambassador/Diplomat
Achashverosh
Adnah
Ammiyhuwd, sued here in his official capacity for
injunctive relief and in his individual capacity for
ancillary monetary damages due to their invalid
prison regulations. See (Doc 2 Appxs. 9).
12. Respondent/Defendant Kim Unknown Last
name, (“hereinafter Respondent/Defendant or
United States statutory citizen Kim Unknown
Last name”) Clerk for the (Judicial Branch)
United States District Court for the Northern
District of Indiana Hammond Division, located
inside the Federal territories and enclaves of the
United States at 5400 Federal Plaza, Suite 2300,
Hammond, IN 46320, with a governmental
(Congress Legislative Branch) widespread,
facially, void ab initio for vagueness, overbreadth,
suspect classification adopted corporate rules,
regulations, policy, custom and/or practice as
applied to “transient foreigner” “non-residence”
rerum natura, and sui generis Hebrew IsraeliteAmerican
national
Chief
Israelite
Ambassador/Diplomat
Achashverosh
Adnah
Ammiyhuwd, sued here in his official capacity for
injunctive relief and in his individual capacity for
ancillary monetary damages due to their invalid
prison regulations. See (Doc 2 Appxs. 9).

App. 20a
13. Respondent/Defendant Joseph S Van
Bokkelen, (“hereinafter Respondent/Defendant
or United States statutory citizen Bokkelen”)
Judge for the (Judicial Branch) United States
District Court for the Northern District of
Indiana Hammond Division, located inside the
Federal territories and enclaves of the United
States at 5400 Federal Plaza, Suite 2300,
Hammond, IN 46320, with a governmental
(Congress Legislative Branch) widespread,
facially,
void ab initio for vagueness,
overbreadth, suspect classification adopted
corporate rules, regulations, policy, custom
and/or practice as applied to “transient
foreigner” “non-residence” rerum natura, and
sui generis Hebrew Israelite-American national
Chief
Israelite
Ambassador/Diplomat
Achashverosh Adnah Ammiyhuwd, sued here in
his official capacity for injunctive relief and in
his individual capacity for ancillary monetary
damages for invalid prison regulations. See (Doc
2 Appxs. 9). See (Doc 2 Appxs. 8).
14. All Respondent(s)/Defendant(s) are subject to
the jurisdiction of United States2’ United States3’
and United States®. See Exhibit B, (Doc. 2
Appxs. 7-25).
III. THE FACTS
15. Rerum natura, and sui generis “transient
foreigner” “non-residence” Israelite-American
national Chief Israelite Ambassador/Diplomat

App. 21a
Achashverosh
Adnah
Ammiyhuwd,
a
Constitutional United States1 non-naturalized
Citizen was born on January 17, 1962. His birth
was made between his father, a Constitutional
United States1 and non-naturalized Citizen
rerum natura, and sui generis IsraeliteAmerican
national
Oscar
Otis
Tucker,
Tennessee Republic, and his mother a
Constitutional
United
States1 and nonnaturalized Citizen rerum natura, and sui
generis Israelite American-national Sadie Ma
Duncan of Alabama Republic. His parents move
freely throughout the several states of the
union. See Exhibit B, (Doc. 2 Appxs. 6-25).
16. “And thou, even thyself, shalt discontinue
from thine heritage that I gave thee; and I will
cause thee to serve thine enemies in the land
which thou knowest not.” Jeremiah 17:4 (KJV).
17. Rerum natura, and sui generis "transient
foreigner” “non-residence” Israelite-American
national
republic
Chief
Israelite
Ambassador/Diplomat Achashverosh
Adnah
Ammiyhuwd asserts that he is and his parents
are
“transient
foreigner”
“non-residence”
Israelite-American national republics (not so
called “sovereign citizens”) under 8 U.S.C. §
1101(a)(14) (21) and that they are NOT “U.S.**
citizens” under 8 U.S.C. §1401 (not so called
Black or so called African American etc., or of
African nationality or descent”). See (Doc. 2
Appxs. 26-29).

App. 22a
Achashverosh
Adnah
Ammiyhuwd,
a
Constitutional United States1 non-naturalized
Citizen was born on January 17, 1962. His birth
was made between his father, a Constitutional
United States1 and non-naturalized Citizen
rerum natura, and sui generis IsraeliteAmerican
national
Oscar
Otis
Tucker,
Tennessee Republic, and his mother a
Constitutional
United States1 and
nonnaturalized Citizen rerum natura, and sui
generis Israelite American-national Sadie Ma
Duncan of Alabama Republic. His parents move
freely throughout the several states of the
union. See Exhibit B, (Doc. 2 Appxs. 6-25).
16. “And thou, even thyself, shalt discontinue
from thine heritage that I gave thee; and I will
cause thee to serve thine enemies in the land
which thou knowest not.” Jeremiah 17:4 (KJV).
17. Rerum natura, and sui generis “transient
foreigner” “non-residence” Israelite-American
national
republic
Chief
Israelite
Ambassador/Diplomat Achashverosh
Adnah
Ammiyhuwd asserts that he is and his parents
are
“transient
foreigner”
“non-residence”
Israelite-American national republics (not so
called “sovereign citizens”) under 8 U.S.C. §
1101(a)(14) (21) and that they are NOT “U.S.**
citizens” under 8 U.S.C. §1401 (not so called
Black or so called African American etc., or of
African nationality or descent”). See (Doc. 2
Appxs. 26-29).

App. 23a
18. Rerum natura, and sui generis “transient
foreigner” “non-residence” Israelite-American
national
republic
Chief
Israelite
Ambassador/Diplomat Ammiyhuwd asserts that
in the year of 2012, he came into the knowledge
and truth by visions, and discernment from the
Holy Spirit, and diligent research that he and his
parents are the descendants of the biblical
Hebrew Israelites of the Holy Bible by blood, and
are American national republics by birth (not so
called
“sovereign
citizens”),
“transient
foreigners” 8 U.S.C. §1101(a)(14) (21) “nonresidence” and that they are NOT “U.S.**
citizens” under 8 U.S.C. §1401 (not so called
Black or so called African American etc., or of
African nationality or descent”). See (Doc. 2
Appxs. 26-29).
19. Psalm 83:3-5 (KJV) “They have taken crafty
counsel against thy people, and consulted against
thy hidden ones. 4 They have said, Come, and let
us cut them off from being a nation; that the
name of Israel may be no more in remembrance.”
“But the Comforter, which is the Holy Spirit,
whom the Father will send in my name, he shall
teach you all things, and bring all things to your
remembrance.” John 14:26 (KJV).
20. On November 5, 2018, in care of the
. Valparaiso, Indiana Post Office at, 2700,
Valparaiso Street P.O. Box. 1542, NonDomestic-without US, 28 U.S.C. § 1746(1),
Valparaiso, Indiana Zip Code Exempt [DMM 602
1.3e (2)], (Rural Free Delivery Section 4.5.4 of

App. 24a
the Domestic Mail Manual, “competitive P.O.
Box services.”), rerum natura, and sui generis
“transient foreigner” “non-residence” IsraeliteAmerican
national
republic
Chief
Ambassador/Diplomat Achashverosh Adnah
Ammiyhuwd domicile in the Kingdom of
heaven on earth, private property of the Most
High God Creator (See Psalms 89:11-13 (KJV),
Isaiah 45:12 (KJV), Deuteronomy 10:14 (KJV),
etc), applied for a United States1 passport with
Respondent(s)/Defendant(s)
Pompeo
and
Shelton at the Passport Center in Sterling,
Virginia, New Hampshire Region. See Exhibit
B, (Doc. 2 Appxs. 6-25).
21. Rerum natura, and sui generis “transient
foreigner” “non-residence” Ambassador/Diplomat
Achashverosh
Adnah
Ammiyhuwd
sent
Respondent(s)/Defendant(s) Pompeo and Shelton
a copy of his Legal and Common Law Name
Correction Affidavit; See (Doc. 2 Appxs. 26-27), a
copy of his Hebrew Israelite Lawful Common
Law Trible Identification, See (Doc. 2 Appxs.
28-29), a copy of his United States of America
Passport Application Attachment pages 1-7, See
(Doc. 2 Appxs. 34-40), as stated in the “Purpose
and Certificate of Service” pages 1-6, that
Respondent(s)/Defendant(s) Pompeo and Shelton
also received. See (Doc. 2 Appxs. 30-33). contrary
to law
22.
On
December
2018,
19,
Respondent(s)/Defendant(s),
and
Executive
officers Pompeo,
Shelton conspired with

App. 25a
Respondent(s)/Defendant(s)
Nielsen
and
Whitaker to willfully and unreasonable
interfere with rerum natura, and sui generis
“transient foreigner” "non-residence” IsraeliteAmerican
national
republic
Chief
Ambassador/Diplomat Achashverosh
Adnah
Ammiyhuwd constitutionally and federally
protected rights at 207 International Drive,
Portsmouth, NH 03801, to search, seize,
arbitrarily,
capriciously,
willfully,
and
unreasonable deny Rerum natura, and sui
generis “transient foreigner” “non-residence”
Ambassador/Diplomat Achashverosh
Adnah
Ammiyhuwd, a united States of America
passport depicting his political status as
Ambassador or Diplomatic on the cover of his
united States of America passport and his
nationality as Israelite-American national on
the
second
page
(Nationality/Nationalite/Nacionalidad)
and
placed him into their United States2, (Congress
Legislative Branch) and United
States
governmental (Executive Branch) Jurisdiction
and custody pursuant to 28 U.S.C. § 1746(2), at
950 Pennsylvania Avenue, NW, Washington,
DC 20530-0001 contrary to law, imposes
significant restraints on his liberty, religious
liberty and other fundamental rights due to
their invalid prison regulations. See (Doc 2
Appxs. 1).

App. 26a
23. Respondent(s)/Defendant(s), and Executive
officers Pompeo, Shelton, Nielsen and Whitaker
(collectively)
motivated
by
invidiously
discriminatory animus, in an overt act sent a
letter of refusal dated December 19, 2018, See
(Doc. 2 Appxs. 1-2), in furtherance of their
conspiracy to confirm the denial of Petitioner’s
united States1 of America passport depicting his
political status as “Ambassador or Diplomatic,”
and his nationality, as “Israelite-American
national” pursuant to 8 U.S.C. §1101(a)(14) (21)
and to keep him in their United States2,
(Congress Legislative Branch) and United
States
governmental (Executive
Branch)
Subject Jurisdiction and custody under their
invalid prison regulations. Id.
24. This constitutes custody, within the meaning
of Jones v. Cunningham,, 371 U.S. 236,240
(1963), for purposes of 28 U.S.C. §2241, 18
U.S.C. §§ 241 and_18 U.S.C. § 242, while
refusing to complete section 5 and section 6 of
the United States of America Passport
Application Attachment pages 1-7 as request
with intent to deprive Petitioner/Plaintiff of the
equal protection and immunities under, the law
resulting injury to his rights due to their invalid
prison regulations.
See (Doc. 2 Appxs. 3-5,
37-39).
25. Respondent(s)/Defendant(s) Pompeo, Shelton,
Nielsen and Whitaker in the first sentence and
Paragraph of their December 19, 2018,

App. 27a
correspondence See (Doc. 2 Appxs. 1), to rerum
natura, and sui generis “transient foreigner”
“non-residence”
Israelite-American
national
republic
Chief
Ambassador/Diplomat
Achashverosh Adnah Ammiyhuwd admits that
rerum natura, and sui generis “transient
foreigner” “non-residence” Israelite-American
national
republic
Chief
Israelite
Ambassador/Diplomat Achashverosh
Adnah
Ammiyhuwd by birth, born in North America
republic, a Constitutional United States1 Citizen
entitled to a united States1 of America passport
pursuant to 8 U.S.C. §1101(a)(14) (21). See
Exhibit B, (Doc. 2 Appxs. 7-25).
26.
However,
in
the
same
breath,
Respondent s)/Defendant(s) Pompeo, Shelton,
Nielsen and Whitaker as an Executive Officials
has erroneously, willfully and unreasonable
placed rerum natura, and sui generis “transient
foreigner” “non-residence” Israelite-American
national republic Chief Israelite Ambassador
Achashverosh Adnah Ammiyhuwd, although born
in the Union republic, have placed him in the
Federal territories and possessions and federal
areas within their United States2, (Congress
Legislative
Branch)
and
United
States
governmental
(Executive
Branch)
Subject
Jurisdiction and custody in violation of
substantive and procedural due process due to

App. 28a
their invalid prison regulations, the First,
Fourth, Fifth, Sixth, Eight, Ninth, Tenth, and
Thirteenth Amendments to the united States of
America Constitution. See (Doc. 2 Appx. 1). Id.
27. On January 3, 2019, rerum natura, and sui
generis “transient foreigner” “non-residence”
Israelite-American national republic Chief
Ambassador/Diplomat Achashverosh Adnah
Ammiyhuwd filed his original verified Writ of
Habeas Corpus and Complaint for Declaratory
and Injunctive Relief predicate to Demand for
ancillary and/or consequential damages of
Injuries with Disclosure of Interested Parties
and Appendix (Doc. 1 and Doc. 2), and on
January 4, 2019, filed an amended verified Writ
of Habeas Corpus and Complaint incorporating
previous filed Disclosure of Interested Parties
and Appendix with (Judicial Branch) public
servant Clerk Kim that refused to give her last
name in violation of substantive and procedural
due process due to their invalid prison
regulations. (Doc. 3). Id.
28. Because of rerum natura, and sui generis
“transient foreigner” “non-residence” IsraeliteAmerican
national
republic
Chief
Ambassador/Diplomat
nationality,
religion,
alienage, and the filing of the verified Writ of
Habeas Corpus and Complaints, in an over act in
furtherance of the conspiracy, public servants
Clerk Kim Unknown Last name, Rogers and
Trgovich motivated by invidiously discriminatory

App. 29a
animus, clothed with the authority of federal
law, acting under color of federal law, ultra-vires
beyond legal jurisdiction, in an overt act and in
furtherance of the conspiracy willfully and
unreasonable out of retaliation and prejudicial to
rerum natura, and sui generis “transient
foreigner” “non-residence” Israelite-American
national republic Chief Ambassador/Diplomat
Achashverosh Adnah Ammiyhuwd, refused to
issue summonses to Chief Ambassador/Diplomat
Achashverosh Adnah Ammiyhuwd to be serve on
respondent/defendants
to
keep
•> Petitioner/Plaintiff in their United States2,
(Congress Legislative Branch) and United States
governmental
(Executive
Branch)
Subject
Jurisdiction and custody in violation of
substantive and procedural due process due to
their invalid prison regulations. Id.
29. On January 8, 2019, rerum natura, and sui
generis “transient foreigner” “non-residence”
Israelite-American national republic Chief
Ambassador/Diplomat filed a Second Amended
verified Writ of Habeas Corpus and Complaint.
(Doc. 5). On January 10, 2019 Article III Judge
Joseph S Van Bokkelen, motivated by invidiously
discriminatory animus, clothed with the
authority of federal law, acting under color of
federal, law, ultra-vires beyond legal jurisdiction,
in an overt act and in furtherance of conspiracy
prejudicially,
willfully,
unreasonably
and
erroneously, through adopted facially void ab
initio for vagueness “Unauthorized Practice of

App. 30a
Law” statutory rules in all of its applications,
and places a substantial burden as applied to
petitioner(s)/plaintiff(s) that has not agreed or
contracted to follow any corporate rules,
policies, customs, practice and/or regulations in
violations of his right to exercise religious
beliefs, freedom of speech, freedom of symbolic
expression, freedom of conscience, freedom to
assemble, freedom of movement, freedom to
associate with Israelite identity, nationality,
and right to property standing of spiritual and
religious conduct, constituting compelled
association to Joseph S Van Bokkelen
Established Religion separated the verified
Second Amended Writ of Habeas Corpus and
Complaint, Denying the verified Writ of Habeas
Corpus and dismissed the complaint without
prejudice (Doc. 8 and 9) to keep him in their
United States2, (Congressional Legislative
Branch) and United States governmental
(Executive Branch) Subject Jurisdiction and
custody in violation of substantive and
procedural due process,the First, Fourth, Fifth,
Sixth, Seventh, Eighth, Ninth, Tenth, and
Thirteenth Amendments to the united States
Constitution as applied in this matter. Coates
v. Cincinnati, 402 II.S. 611. 91 S.Ct. 1686, 29
L.Ed.2d 214 or if vague as applied, Parker v.
Levy, 417 U.S. 733. 753-758, 94 S.Ct. 2547,
2560-2563, 41 L.Ed.2d 439.

App. 31a
In: recent cases the United States Supreme
Court has shown a "cause of action" under
Bivens v. Six Unknown Nam.ed Agents, Davis v.
Passm,an, Ashcroft v. Iqbal, and Carlson v.
Green pursuant to First, Fourth, Fifth and
Eighth Amendments right violations.
• In Bivens v. Six Unknown Named Agents, 403
U.S. 388 (1971). The US Supreme Court ruled
that an implied cause of action existed for an
individual whose Fourth Amendment freedom
from unreasonable search and seizures had
been violated by the Federal Bureau of
Narcotics. The victim of such a deprivation
could sue for the violation of the Fourth
Amendment itself despite the lack of any
federal statute authorizing such a suit. The
existence of a remedy for the violation was
implied by the importance of the right
violated.
“In Bivens, federal officials had violated
the plaintiffs Fourth Amendment right
not to be subjected to unreasonable
search and seizure, and there was no
alternative, adequate remedy available.
Id. The Court reasoned that although
“the Fourth Amendment does not in so
many words provide for its enforcement
by an award of money damages for the
consequences of its violation,” it was
‘“well settled that where legal rights
have been invaded, and a federal
statute provides for a general right to

App. 32a
sue for such invasion, federal courts
may use any available remedy to make
good the wrong done.’” Id. at 396
(quoting Bell v. Hood, 327 U.S. 678,
684 (1946)).”
• In Davis v. Passman, a case involving alleged
gender discrimination, the Court implied a
Bivens cause of action under the Fifth
Amendment and held that “a damages
remedy is surely appropriate.” 442 U.S. 228,
245 (1979). And in Ashcroft v. Iqbal, a case
that involved arrests and detentions in the
aftermath of the September 11 attacks, the
Supreme Court impliedly approved the
existence of a Bivens claim under the Fifth
Amendment, even as it questioned the
existence of a Bivens claim under the First
Amendment. 556 U.S. 662, 675 (2009), and
the Cruel and Unusual Punishments Clause
of the Eight Amendment, Carlson v. Green,
446 U.S. 14 (1980).
The First Amendment to the united States of
America Constitution provides:
“Congress
shall
make
no
law
respecting
an
establishment
of
religion, or prohibiting the free
exercise thereof; or abridging the
freedom of speech, or of the press; or
the right of the people peaceably to

App. 33a
assemble,
and to
petition
the
Government
for
a
redress
of
grievances.”
30. The Fifth Amendment provides that "[n]o
person shall be...deprived of life, liberty, or
property, without due process of law...." The
Due Process Clause of the Fifth Amendment
forbids the Federal Government to deny equal
protection of the laws. E. g., Hampton v. Mow
Sun Wong, 426 U. S. 88, 100 (1976); Buckley v.
Valeo, 424 U. S. 1, 93 (1976); Weinberger v.
Wiesenfeld, 420 U. S. 636, 638 n. 2 (1975);
Bolling v. Sharpe, 347 U. S. 497, 500 (1954)."
Vance v. Bradley, 440 U. S. 93, 95 n. 1 (1979).
"To withstand scrutiny under the equal
protection component of the Fifth Amendment's
Due
Process
Clause,
'classifications by
Nationality, Religion or Gender must serve
important governmental objectives and must be
235 *235 substantially related to achievement of
those objectives.’ Craig v. Boren, 429 U. S. 190,
197 (1976)."[9] Califano v. Webster, 430 U. S.
313, 316-317 (1977). The equal protection
component of the Due Process Clause thus
confers on petitioner a federal constitutional
right[10] to be free from Nationality, Religion
and Gender discrimination.
a. 18 U.S.C. § 241, commonly referred to
as "section 241” provides:
If two or more persons conspire to

App. 34a

If two or more persons conspire to
injure,
oppress,
threaten,
or
intimidate any person in any State,
Territory, Commonwealth, Possession,
or District in the free exercise or
If two or more persons go in disguise
on the highway, or on the premises of
another, with intent to prevent or
hinder his free exercise or enjoyment
of any right or privilege so secured—
They shall be fined under this title or
imprisoned not more than ten years, or
both; and if death results from the acts
committed in violation of this section
or if such acts include kidnapping or
an attempt to kidnap, aggravated
sexual abuse or an attempt to commit
aggravated sexual abuse, or an
attempt to kill, they shall be fined
under this title or imprisoned for any
term of years or for life, or both, or
may be sentenced to death.
b. 18 U.S.C. § 242, commonly referred to
as "section 242" provides:
“Whoever, under color of any law,
statute,
ordinance,
regulation,
or
custom, willfully subjects any person in

App. 35a

any State, Territory, Commonwealth,
Possession, or District to the deprivation
of any rights, privileges, or immunities
secured or protected by the Constitution
or laws of the United States, or to
different
pains,
or
punishments,
penalties, on account of such person
being an alien, or by reason of his color,
or race, than are prescribed for the
punishment of citizens, shall be fined
under this title or imprisoned not more
than one year, or both; and if bodily
injury results from the acts committed in
violation of this section or if such acts
include the use, attempted use, or
threatened use of a dangerous weapon,
explosives, or fire, shall be fined under
this title or imprisoned not more than
ten years, or both; and if death results
from the acts committed in violation of
this section or if such acts include
kidnapping or an attempt to kidnap,
aggravated sexual abuse, or an attempt
to commit aggravated sexual abuse, or
an attempt to kill, shall be fined under
this title, or imprisoned for any term of
years or for life, or both, or may be
sentenced to death.”

App. 36a
c. Conspiracy Claims under 42 U.S.C. f
1985(3) commonly referred to as
"section 1985" provides:
“If two or more persons in any State or
Territory conspire or go in disguise on
the highway or on the premises of
another, for the purpose of depriving,
either directly or indirectly, any person
or class of persons of the equal
protection of the laws, or of equal
privileges and immunities under the
laws; or for the purpose of preventing or
hindering the constituted authorities of
any State or Territory from giving or
securing to all persons within such State
or Territory the equal protection of the
laws; or if two or more persons conspire
to prevent by force, intimidation, or
threat, any citizen who is lawfully
entitled to vote, from giving his support
or advocacy in a legal manner, toward or
in favor of the election of any lawfully
qualified person as an elector for
President or Vice President, or as a
Member of Congress of the United
States; or to injure any citizen in person
or property on account of such support
or advocacy; in any case of conspiracy
set forth in this section, if one or more
persons engaged therein do, or cause to
be done, any act in furtherance of the

App. 37a
object of such conspiracy, whereby
another is injured in his person or
property, or deprived of having and
exercising any right or privilege of a
citizen of the United States, the party so
injured or deprived may have an action
for the recovery of damages occasioned
by such injury or deprivation, against
any one or more of the conspirators.”
IV. CAUSES OF ACTION
A. HABEAS CORPUS, AND COMBINED 18
U.S.C. §§ 24218 U.S.C. 242 and 42 U.S.C. § 1985
CLAIMS FOR DAMAGES
The inability to speak freely, to express freely,
freedom of conscience, freedom to assemble,
freedom to move freely, freedom to associate
with political status, Israelite identity and
nationality, to disassociate from statutory
identities and nationalities,
being denied a
passport with one’s proper political status and
nationality against fundamental liberty and
religious
liberty
in
victimless
matters
constituting custom and usage with the force of
law, under color of Federal Authority, ultra-vires
beyond legal jurisdiction in the name of and in
disguise of the united States of America, and to
participate in programs available only to U.S.
citizens, which results from Respondents’ denial
of rerum natura, and sui generis “transient
foreigner”
“non-residence”
Chief Israelite
Ambassador Ammiyhuwd’s application for a
United States1 passport depicting his political

App. 38a
status as “Ambassador or Diplomatic”
nationality, as “Israelite-American national”
pursuant to 8 U.S.C. §1101(a)(14) (21),
constitute a significant restriction on his
liberty and religious liberty and belief.
Because these restrictions are not shared by
otherwise similarly situated U.S. citizens, this
constitutes unlawful custody cognizable in
habeas corpus under 28 U.S.C. §2241, 18
U.S.C. § 241, 18 U.S.C. § 242, 42 U.S.C. 1985
and the Commerce Claus.
Rerum natura, and sui generis Hebrew
“transient foreigner” “lion-residence” IsraeliteAmerican
national
Chief
Israelite
Ambassador/Diplomat Achashverosh Adnah
Ammiyhuwd Common Law claim demand the
following affirmative relief:
a. Conspiracy 18 USC 3571, $250,000.00;
b. Fraud 18 USC 3571, $250,000.00;
c. Assault and Battery 18 USC 3571,
$250,000.00;
d. Substantive and procedural due
process 18 USC 3571, $250,000.00;
e. Search and Seizure 18 USC 3571,
$250,000.00;
f. False
Arrest
18
USC
3571,
$250,000.00;
g. Kidnapping
18
USC
3571,
$250,000.00;

App. 39a
a. Infringement on Privacy 18 USC
3571, $250,000.00;
b. Compelled Association Title 18 USC
3571, $250,000.00;
c. Chilled Association, 18 USC 3571,
$250,000.00;
d. Chilled Speech, Religious Belief, and
Expression 18 USC 3571, $250,000.00;
e. Chilled Conscience, 18 USC 3571,
$250,000.00;
f. Breach of Oath Contract Title 18 USC
3571, $250,000.00;
g. Denial of proper Warrant Title 18
USC 3571, $250,000.00;
h. Denial of Claim of Limited
Appearance Title 18 USC 3571,
$250,000.00;
i. Denial of Access to All Evidence Title
18 USC 3571, $250,000.00;
j. Denial of Reasonable Defense
Arguments Title 18 USC 3571,
$250,000.00;
k. Denial to Right to Truth in Evidence
Title 18 USC 3571, $250,000.00;
l. Attempted Slavery, Title 18 USC
3571, $250,000.00;
m. Compensatory damages in the
amount of $5,000.00,
n. Punitive damages in the amount of
$3,000,000.00,

App. 40a

o. Nominal damages in the amount of
$15,000.00 and;
p. Intentional Infliction of Emotional
Distress (IIED) damages in the amount
of $25,000.00
B. DECLARATORY JUDGMENT
Rerum natura, and sui generis “transient
foreigner” “non-residence” Chief Israelite
Ambassador/Diplomat Achashverosh Adnah
Ammiyhuwd is being denied rights and
privileges claimed as a national republic of a
state, domicile in the Kingdom of heaven on
earth within the meaning of 8 U.S.C. §
1101(a)(14) (21) and Section 1 of the
Fourteenth Amendment to the united States
Constitution of America, where “United
States1” as used in this phrase means the
exclusive jurisdiction of states of the Union,
excluding federal territories and possessions
and federal areas within the “United States2’
“United States3 and United States0” by
virtue of the denial of his application for a
United States Passport depicting his United
States1 political status as “Ambassador or
Diplomatic” and his nationality, as “IsraeliteAmerican national”.
Therefore, rerum
natura, and sui generis “transient foreigner”
“non-residence”
Chief
Israelite
Ambassador/Diplomat
Ammiyhuwd
is
entitled to bring a declaratory judgment
action, seeking a declaration that he is,

App, 41a
action, seeking a declaration that he is,
indeed, a United States1 Citizen, under
Section 1 of the Fourteenth Amendment to
the united States Constitution of America,
where “United States1” as used in this
phrase means the exclusive jurisdiction of
states of the Union and an IsraeliteAmerican national republic under 8 U.S.C. §
1101(a) (14) (21). See Exhibit B, (Doc. 2
Appx. 6-25).
“The 1” section of the 14th article
[Fourteenth Amendment], to which our
attention is more specifically invited,
opens with a definition of citizenship-not
only citizenship of the FUnited States2.
United States3, and United States0!, but
citizenship of the states. No such
definition was previously found in the
Constitution, nor had attempt been made
to define it by act of Congress. It been
the occasion of much discussion in the
courts, by the executive departments and
in the pubic journals. It had been said
by eminent judges that no man was a
citizen of the FUnited StatesUnited
States 3. and United StatesG1 except as
he was a citizen of one of the states
composing the Union. Those therefore.
who had been born and resided always
in the District of Columbia or in the
territories, through within the FUnited

App. 42a
States2> United States s> and United
StatesGl. “Fwere not citizens under the
constitution but WERE “citizens” under
8 U.S.C. $ 14011.” [Slaughter-House
Cases, 83U.S. (16 Wall) 36, 21L.Ed. 394
(1873)].
See Exhibit B (Doc. 2 Appx. 6-25).

A. REVIEW OF ADVERSE AGENCY
ACTION
Petitioner also seeks review of the adverse
agency action, denying his application for a
U.S. Passport, under the Administrative
Procedure Act. Said denial is arbitrary,
capricious, contrary to law, and unsupported
by substantial evidence, within the meaning of
5 U.S.C. §706, because he was not given notice
of the alleged adverse evidence, or a hearing
with respect to his claims. Further,
Defendants should be estopped from relying
on the “naturalization” of Petitioner in the
United States1 pursuant to 28 U.S.C. §
1746(1), not subject to the jurisdiction United
States2* United States3 and United States0
thereof aspect of Section 1, of the 14th
Amendment since Petitioner does not claim to
be a Statutory United States2* United States3
or United States0 citizen of federal territories
and possessions and federal areas and declare
and establishes that he is not a so called
“sovereign citizen,” he is not so called “Black
or so called African American, not of African
nationality or descent” or a “U.S.** citizen”

App. 43a
under 8 U.S.C. §1401, but that his political
status is “Ambassador or Diplomatic” and his
nationality is “Israelite-American national”
under 8 U.S.C. §1101(a)(14) (21) born in North
America Ohio Republic, domicile in the
Kingdom of Heaven on earth, from the tribe
Judah (“Yahadah”), the twelve tribes of Israel
(“Yashar’al”), the Holy Bible, a child and the
private property of his Most High God
Creator. See Exhibit B (Doc. 2 Appx. 6-25).
“It is indeed, quite true, that there
must always be lodged somewhere,
and in some person or body, the
authority of final decision; and in
many cases of mere administration
the responsibility is purely political,
no appeal except to the ultimate
tribunal of the public judgement,
exercised either in the pressure of
opinion or by means of the suffrage.
But the fundamental rights to life,
liberty, and the pursuit of happiness,
considered as individual possessions,
are secured by those maxims of
constitutional law which are the
monuments showing the victorious
progress of the race in securing to
men the blessings of civilization
under the reign of just and equal
laws, so that, in the famous language
of the Massachusetts Bill of Rights,

App. 44a
“may be a government of laws and
not of men. For, the very idea that
one man may be compelled to hold his
life, or the means of living, or any
material right essential to the
enjoyment of life, at the mere will of
another, seems to be intolerable in
any country where freedom prevails,
as being the essence of slavery itself.”
[Yick Wo v. Hopkins, 118 U.S. 356,
370 (1886)].
Signatures on all documents filed in this
matter by Petitioner are in accordance with
People v. Stephens, 12 Ill. App. 3d 215, 217-18
(1973) (search warrant was authentic even
though it bore only stamped signature of
magistrate). See also Alpine State Bank v.
Ohio Casualty Insurance Co., 733 F. Supp. 60,
63 (N.D. Ill. 1990), rev'd on other grounds, 941
F.2d 554 (7th Cir. 1991). (use of stamp
constituted signature endorsement). As the
recent enactment of the Electronic Commerce
Security Act (5 ILCS 175/1-101 et seq. (West
1998)) reveals, alternative forms of signatures
are increasingly accepted. See 5 ILCS
175/5-120(a) (West 1998) ("[W]here a rule of
law requires a signature,
an electronic
signature satisfies that rule").
Although the name could have been stamped,
as that manner of signature is explicitly
recognized by the UCC. U.C.C. § 3-401(b)

App. 45a
(2002); IC § 26-1-3.1-308 (2016) “A signature
may be made manually or by means of a device
or machine, and by the use of any name,
including a trade or assumed name, or by a
word, mark, or symbol executed or adopted by
a
person with present intention to
authenticate a writing.”)- Id.
IV. PRAYER FOR RELIEF
WHEREFORE, the forgoing it is respectfully
requested that this Court grant the requested
writ, and issue a Declaratory Judgment
declaring rerum natura, and sui generis
“transient foreigner” “non-residence” Chief
Ambassador/Diplomat Achashverosh Adnah
Ammiyhuwd a United States1 Citizen, as used
in this phrase means the exclusive jurisdiction
of states of the Union, excluding federal
territories and possessions and federal areas
within the “United States2’ “United States3 and
United States0” and a permanent injunction,
enjoining Respondent Pompeo from not issuing
him a United States1 passport depicting his
political status as “Ambassador or Diplomatic”
and his nationality as “Israelite-American
national”. In the Alternative, it is urged that
the case be remanded to the State
Department, with instructions to provide a
Due Process hearing on his application
because they refused to complete section 5 and
section 6 of the United States of America
Passport Application Attachment pages 1-7 as

App. 46a
requested. See (Doc. 2 Appxs. 3-5, 37-39) See
(Doc. 2 Appxs. 3-5, 37-39). It is also requested
that the Court grant such other and further
relief as the Court may consider appropriate.
See Exhibit B (Doc. 2 Appx. 6-25).
Date: January 14, 2018
Respectfully Submitted,
By: s/Achashverosh Adnah Ammiyhuwd
Uniform Commercial Code UCC
3-401(b)Chief
Ambassador Israelite-American
national’
In do 2700 Valparaiso. St # 1542
Non-Domestic-without US,
.28 U.S.C. §1746(1)
Valparaiso, Indiana Zip Code
Exempt [DMM 602 1.3e (2)]
Real Land North America
No assured value, No liability. Errors &
Omissions Excepted. All Rights Reserved.
WITHOUT PREJUDICE - WITHOUT
RECOURSE - NON-ASSUMPSIT
VERTETCATTON
I, rerum natura, and sui generis Chief
Israelite Ambassador/Diplomat Achashverosh
Adnah Ammiyhuwd declare (or certify, verify,
or state) under penally of perjury under the
laws of the United States of America that I am
familiar with the history of the above case,

App. 47a
and that the foregoing is true and correct to
the best of my knowledge and belief. 28 U.S.G,
§ 1746(1).
Date: January 14, 2018
By: s/Achashverosh Adnah Ammiyhiiwd
Uniform Commercial Code UCC 3-401(b)
No assured value, No liability. Errors &
Omissions Excepted. All Rights Reserved.
WITHOUT PREJUDICE - WITHOUT
RECOURSE - NON-ASSUMPSIT

App. 48a.
Appendix G
UNITED STATES OF AMERICA
PASSPORT APPLICATION
ATTACHMENT FORM
This form is provided as a mandatory
attachment to U.S. Department of State form
DS-11 in order to carefully define my
citizenship status and legal domicile. The
attached DS-11 application is INVALID and
not useful as evidence in any legal proceeding
WITHOUT this mandatory attachment also
included in its entirety with no information
altered or redacted on either the DS-11 or this
form by anyone other than me. The reason I
am attaching this form is to prevent
surrendering my sovereign status by having
my citizenship misconstrued as that of a
statutory “U.S. citizen” defined in 8 U.S.C, §
1401. A statutory “U.S. citizen” cannot be a
“foreign sovereign” by virtue of their statutory
citizenship as described in 28 U.S.C. $1603fh)
(3). It is also a crime pursuant to 18 U.S.C. §
1542. 18 U.S.C. §911. 18 U.S.C. 51001. and 18
U.S.C. $1621 to declare oneself to be a
statutory “U.S. citizen” pursuant to 8 U.S.C. §
1401 when one has no evidence on which to
base a reasonable belief that they are and I
don’t ever want to be a criminal by saying
anything on a government form that I know
either isn’t true or which I can’t prove with
evidence is true. The submission of this form
is therefore provided at the advise of my
counsel as an act of self-defense intended to

App. 49a.
protect my constitutional rights from being
injured by false presumptions. being
compelled to engage in compelled association,
or from having my legal identity kidnapped
and moved to the District of Columbia
pursuant to 26 U.S.C. §§7701(a)(39) and
7408(d) without my consent. DO NOT attempt
to contact me to persuade me to change my
citizenship or domicile status as documented
on this form or to change any answer provided
on the attached DS-11 form. Doing so will
cause you to engage in a criminal conspiracy
to tamper with a witness in violation of 18
U.S.C. $1512 and to violate 18 U.S.C. SI542.
18 U.S.C. $911. 18 U.S.C. §1001. and 18 U.S.C.
§1621. The penalty for violating these statutes
is up to 25 years in jail. If you have a problem
with my status as documented herein, please
in your response copy this form and complete
Sections 7 of this form.
SECTION 1: MY CITIZENSHIP STATUS
1. I AM ALL OF THE FOLLOWING:
1.1. I was born within the exclusive
jurisdiction of a state of the Union and
not on federal territory.
1.2. I am the constitutional “citizen of the
United States” described in Section 1
of the Fourteenth Amendment, where
“United States” as used in this phrase
means the exclusive jurisdiction of
states of the Union and excludes

App. 50a.
federal territories and possessions and
federal areas within the states. The
“citizens” of District of Columbia
referred to below are statutory
“citizen of the United States” defined
in 8U.S.C. §1401
“The 1st section of the 14th article
[Fourteenth Amendment], to which
our attention is mere specifically
invited, opens with a definition of
citizenship—not only citizenship of
the
United
Stalest***],
but
citizenship of the states. No such
definition was previously found
in the Constitution, nor had any
attempt been made to define it by
act of Congress. It had been the
occasion of much discussion in the
Courts,
the
executive
by
departments and in the public
journals. It had been said by
eminent judges that no man was
a
citizen
of
the
United
Statesf***! except as he was a
citizen of one of the states
composing the Union. Those
therefore, who had been born
and resided always in the
District of Columbia or in the
territories, though within the
United
Statesf* 1,
were
not
citizens funder the constitution

App. 51a.
but WERE “citizens* under 8
U.S.C. €14011.”
[Slaughter-House Cases, 83 U.S.
(16 Wall) 36, 21 L.Ed. 394 (1873)]
1.3. I am a “U.S. Citizen” where the term
“U.S.” includes the “United States”
mentioned in the Constitution but
excludes the “United States” defined
in 8 U.S.C. SnOUaV.m 8 U.S.C. §
HQl(a)(36), 8 CFR §215.1, 26 U.S.C. §
2201(a)(9) and (a)(10), or any other
federal statute.
1.4. I am a “national” as defined in 8
U.S.C. $1101(a)(21).
1.5. I am a “non-citizen national”
defined in 8 U.S.C. $1452.
1.6.

as

I am the “Citizen” described in the
original 1789 Constitution of the
United States of America.

1.7. I am “subject to the jurisdiction of the
United States”, which means the
“politicar but not “legislative”
jurisdiction as described by the U.S;
Supreme Court in U.S. v. Wong Kim.
Ark:
“This section contemplates two
sources of citizenship, and two
sources
only,-birth
and

App. 52a.
naturalization,
The
persons
declared to be citizens are 'all
persons born or naturalized in the
United States[***J, and subject to
the jurisdiction thereof.' The
evident meaning of these last
words is, not merely subject in
some respect or degree to the
jurisdiction
the
United
of
States[**], but completely subject
to their political jurisdictionT and
owing them [the states of the
Union, and NOT the federal
government] direct and immediate
allegiance. And the words relate to
the time of birth in the one case, as
they do [169 U.S. 649, 725] to the
time of naturalization in the other.
Persons not thus subject to the
jurisdiction
the
United
of
States[***] at the time of birth
cannot become so afterwards,
except by being naturalized, either
individually, as by proceedings
under the naturalization acts, or
collectively, as by the force of a
treaty by which foreign territory is
acquired. ”
[U.S. v. Wong Kim Ark, 169 U.S.
MS, 18 S.Ct. 456; 42 L.Ed. 890
(1898)]

App. 53a.
1,8. I am a “stateless person” within t.hpi
meaning of 28 U.S.C. §1332 because T
am not domiciled in the “State”
defined in 28 TT.S.C. S1332f<0 as a
federal territory. States of the Union
are not “States” as defined within
federal legislation.
1.9. I am a “citizen” ONLY of the Kingdom
of Heaven. See Philippians 3:20. I am
therefore subject ONLY to the laws of
my Creator and not to any civil law. I
am a “national” but not a statutory
“citizen” in relation to the government
of the place where I was physically
born.
1.10. My allegiance to God, mv Creator, is
SUPERIOR to that of any earthly
government. My allegiance to the
“United States of America” is
subordinate to that which I owe to my
Creator. The Kingdom of Heaven is a
“foreign state” in that respect, to
which I owe undiluted and superior
allegiance. I have sworn an oath of
allegiance to my Creator and to the
Kingdom of Heaven, which is a
“foreign state”. The First Amendment
says that you cannot discriminate
against me or take away my
nationality by virtue of having that
superior allegiance or taking that oath
to my Creator:

App. 54a.
“You shall fear the LORD your
God and serve [only] Him, and
shall take oaths in His name."
fDeut. 6:13. Bible, KJV]
1.1. Where the laws of my Creator found
in the Holy Bible conflict with the
laws of the United States, the former
shall at all times take precedent:
“Much, has been said of the paramount duty
to the state, a duty to be recognized, it is
urged, even though it conflicts with,
convictions of duty to God. Undoubtedly
that duty to the state exists within the
domain of power, for government may
enforce obedience to laws regcu'dless of
scruples. When one’s belief collides with the
power of the state, the latter is supreme
within its sphere and submission or
punishment follows. But, in the forum of
conscience, duty to a moral power higher
than the state has always been maintained.
The reservation of that supreme
obligation,s
as a matter of
principle, would unquestionably
be made by m.any of our
conscientious and law-abiding
citizens. The essence of religion
is belief in a relation to God
involving duties superior to those
[283 U.S. 605, 6341 arising from.
any human relation. As was
stated by Mr. Justice Fieldf in
Davis v. Reason. 133 U.S. 333.

App. 55a.
342 . 10 S. Ct. 299. 300: 'The
term 'religion has reference to
one's views of his relations to his
Creator. and to the obligations
they impose of reverence for his
being and characterT and of
obedience to his will.' One
cannot speak of religious libertyr
with proper appreciation of its
essential
and
historic
significance, without assuming
the existence of a belief in
supreme allegiance to the will of
God. Professor Macintosh, when
pressed by the inquiries put to him,,
stated what is axiomatic in
religious doctrine. And, putting
aside dogmas with their particular
conceptions of deity, freedom of
conscience itself implies respect
for an innate conviction of
paramount duty. The battle for
religious liberty has been fought
and won with respect to religious
beliefs and practicesr which are
not in conflict with good order.
upon the very ground of the
supremacy of conscience within
its proper field. What that field is,
under our system of government,
presents in part a question of

App, 56a.
constitutional law, and also, in
part, one of legislative policy in
avoiding unnecessary clashes with
the dictates of conscience, There is
abundant room for enforcing the
requisite authority of law as it is
enacted and requires obedience.
and
for
maintaining
the
conception of the supremacy of
law as essential to orderly
government, without demanding
that either citizens or applicants
for citizenship shall assume by
oath an obligation to regard
allegiance to God as subordinate
to allegiance to civil power. The
attempt to exact such a promise.
and thus to bind one's conscience
by the taking of oaths or the
submission to testsr has been the
cause
of
many
deplorable
conflicts.
The Congress has
sought to avoid such conflicts in
this country by respecting our
happy tradition. In no sphere of
legislation has the intention to
prevent such clashes been m.ore
conspicuous than in relation to
the bearing of arms. It would
require strong evidence F283 U.S.
605. 6357 that the Congress

App. 57a.
intended a reversal of its policy
in prescribing the general terms
of the naturalization oath. I find
no such evidence. ”
[U.S. v. Macintosh, 283 U.S. 605
(1931)]
2. T AM NOT ANY OF THE FOLLOWING:
2.1. I am NOT a statutory “citizen of the
United States” as defined in 8 U.S.C. §
1401 because the term “United States”
does not include states of the Union,
as confirmed by 8 U.S.C. §1101(a)(36).
8 U.S.C. S1101(aV38). and 8 CFR §
215.1(f). Note that the term “State” as
defined in 8 U.S.C. §1101(a)(36) DOES
NOT include any state of the Union
and the term “continental United
States” includes only these same
“States”. Under the rules of statutory
construction, what is not expressly
includes is purposefully excluded by
implication:
“Expressio unius est exclusio
alterius. A maxim of statutory
interpretation meaning that the
expression of one thing is the
exclusion of another. Burgin v.
Forbes, 293 Ky. 456, 169 S.W.2d
321, 325; Newblock v. Bowles, 170
Okl. 487, 40 P.2d 1097, 1100.
Mention of one thing implies

App. 58a.
exclusion of another. When certain
persons or things are specified in
a law. contract or will. an
intention to exclude all others
from its operation may be
inferred. Under this maxim, if
statute specifies one exception to a
general rule or assumes to specify
the effects of a certain provision,
other exceptions or effects are
excluded.”
[Black’s
Law
Dictionary, Sixth Edition, page
581]
2.2. I am NOT the “citizen of the United
States” or “individual” named in 26
CFR §1.6012-1 who has a requirement
to file a federal income tax return,
because the term “United States” as
used in 26 U.S.C. Subtitle A relies on
the definition of “United States” found
in 26 U.S.C. §7701(aY9) and (a)(10),
which in turn defines “United States”
as the District of Columbia and
nowhere expressly includes any state
of the Union.
2.3. I am NOT a statutory “national of the
United States” as defined in 8 U.S.C. §
1408 or 8 U.S.C. $1101(aV22¥B\
which is also called a “U.S. national”
by the federal courts. I was NOT born
within and am not domiciled within
American Samoa or Swain’s Island or
any other U.S. possession.

App. 59a.
2.4. I am not subject to “its” jurisdiction”
or the legislative jurisdiction of the
“United States” because I do not
maintain a legal domicile anywhere
within the “United States” as defined
in Section 3 below or within any
federal territory.
2.5. I am not a “citizen” of the “State
of
”, where the blank after
“State of’ is the state I was either
born in or may temporarily occupy as
a “transient foreigner” with no
domicile or “residence” there.
SECTION 2: MY DOMICILE, RESIDENCE
and “PERMANENT ADDRESS”
1. I am domiciled in the Kingdom of Heaven
on Earth and not within the legislative
jurisdiction of any man-made government
on earth. All domicile requires physical
presence on the territory of the sovereign
to whom one claims allegiance, and the
intention of remaining there permanently.
The Bible says the Earth is not permanent
(see 2 Peter 3:7). and therefore I cannot
have a domicile there. However, the Bible
also says that the Heaven and the Earth
belong to the Lord (see Psalms 89:11-13.
Isaiah 45:12. Deuteronomy 10:14, etc), and
therefore I am on the territory of my
sovereign, which is Jesus (Yashaya)
Messiah and not any man or group of men.

App. 60a.
2. I am a “pilgrim”, “stranger”, “sojourner”,
and “transient foreigner” in every country
on earth by virtue of the fact that I have no
domicile in any man-made government on
earth. The Bible confirms this in 1 Peter
2:1. I am therefore not “conformed to the
world” pursuant to Romans 12:2. nor am I a
“friend” of this world” pursuant to James
4:4. My domicile status is therefore a
product of my choice of religious practice,
which is protected by the First Amendment
to the Constitution of the United States of
America. Any attempt to attribute any
status OTHER than that described here by
any government official is an interference
with my right of free political association
and constitutes “compelled association” in
violation of the First Amendment to the
Constitution of the United States and of 42
U.S.C. $1983.
3. My chosen country and “foreign state” of
domicile, being the Kingdom of Heaven, is
currently under hostile temporary foreign
occupation, making me a dispossessed
person. It is under hostile occupation
because the government temporarily
managing it, the U.S. government, has
become hostile to God and His laws, and is
rebelling against those laws daily. It is
doing
so
by
removing
the
Ten
Commandments from public buildings,
removing God from public oaths, from the
pledge of allegiance, and eventually from

App. 61a.
our money, and in preventing children from
learning
about
God
or
the
Ten
Commandments in the public schools, which
have thereby become a immoral cesspool
whose main function is to promote ignorance
of law and religion that manufactures
dysfunctional citizens who are ignorant of the
law and ripe for government and legal
profession exploitation. God predicted this
would happen in Isaiah 30:1-3, 8-14, and His
prophesies about the corruption of our de jure
government have been realized in spades.
4. I do NOT have a “residence” as legally defined.
The term “residence” is nowhere defined in the
context of a person who is a “non-citizen
national” as defined in 8 U.S.C. §§1101fa¥21)
and 8 U.S.C, §1452. Only “residents” as
defined in 26 U.S.C. §7701fbYlYAl can legally
have a “residence”, and these people are
“aliens” as defined in 8 U.S.C. §1101('a¥3N).
This is confirmed by the definition of
“residence” in 26 CFR, §1,871-2 for the
purpose of income taxes, which defines
“residence” ONLY in the context of “aliens”.
Nowhere is it defined in the context of “non­
citizen nationals” because these persons are
sovereigns who are not subject to the law.
5. The government cannot lawfully compel me to
choose a “domicile” or “permanent address” or
“residence” anywhere within its legislative
jurisdiction. If it attempts to do so, then it will
be guilty of violating my First Amendment

App. 62a.
right of free political association. Domicile
is a protected First Amendment choice of
political association. Implicit in the right of
free
association
is
freedom
from
COMPELLED association.
SECTION 3: DEFINITIONS APPLYING TO
ATTACHED DS-11 FORM AND THIS FORM
The following definitions are presumed and
established for all terms used on the attached
U.S. Department of State DS-11 form. The
First Amendment gives me a right to freely
communicate with my government, and
implicit in that right is the right to define the
meaning of all the words I am using so as to
avoid and prevent introducing or encouraging
any presumptions that might prejudice my
Constitutionally
guaranteed
rights
or
sovereignty:
1. “Permanent address”= the place of domicile
of the applicant, which in turn is defined in
SECTION 2 above.
2. “residence”= the place of permanent abode
for ONLY an “alien”. This is confirmed by 26
CFR SI .871-2.
3. “United States”= for the purposes of most
federal forms and statutory law, the
corporation defined in 28 U.S.C. §30021151
(A). It’s territorial extend shall include the
territories and insular possessions defined
in Title 48 of the U.S. Code and excludes any
part of a state of the Union not owned by
and ceded to the government of the United

App. 63a.
States and under the exclusive jurisdiction of
said state. For the purposes of this application
only, it means the collective states of the
Union united under the Constitution and
excludes federal territories, possessions, and
the District of Columbia, and every definition
of “United States” used in federal statutory
law.
4. “United States of America”= The Union of
sovereign and independent states created by
the Constitution of the United States of
America, ratified in 1789. The term “States”
as used in “United States of America” means
the “States” described in that constitution.
5. “U.S. citizen”= This term is nowhere
statutorily defined in Title 8 of the U.S. Code,
and therefore its meaning is ambiguous. For
the purposes of this application, it shall mean
the person whose citizenship is that defined in
SECTION 1 above and whose domicile is that
defined in SECTION 2 of this form. This
person is NOT that defined in 8 U.S.C. §1401,
which is described as a “citizen and national of
the United States”, which person is born in a
federal territory. States of the Union are NOT
federal territory.
"Territories'
or
'territory'
as
including 'state' or 'states." While the
term 'territories of the' United States
m.ay, under certain circumstances,
include the states of the Union, as
used in the federal Constitution and
in
ordinary acts
of congress

App. 64a.
"territory" does riot include a
foreign state ” [86 C.J.S.
(Corpus, Juris, Secundum,, Legal
Encyclopedia), Territories, Section
1]
6. “State”= the entity defined in 4 U.S.C. §
110(d) as a territory or possession of the
United States. Excludes states of the
Union, which are called “states” within this
document and the attached DS-11
application.
7. “eitizenship”=“nationality”. A “national”,
which is a person having “nationality”, is
defined in 8 U.S.C. §1101(a)(21) as a person
owing allegiance to a “state”, which state,
because it is not Capitalized, is legislatively
a “foreign state” for the purposes of federal
legislative jurisdiction. This term does
NOT imply a domicile within the “United
States” but that the person referred to was
either born or naturalized to become a
political member of the Union described in
the Constitution of the United States of
America. This person is in no way subject
to any of the laws of the “United States”,
but rather “owes allegiance” to the Union
created by the Constitution of the United
States of America, which Union consists of
the sovereigns it was created to SERVE,
We the People, and in no respect includes
the “government” created and appointed to
serve and protect them.

App. 65a.
For additional definitions of terms not
mentioned here or for further clarification of
my citizenship status or if you disagree with
any portion of this section, please refer to and
rebut the following form, and especially
section
Why You are a “national” or a “state
national” and not a “U.S. citizen". Form #
05.006; http://sedm.org/Forms/Formlndex.htm
SECTION 4: SOCIAL SECURITY NUMBERS,
PRIVACY, AND RESERVATION OF RIGHTS
Pursuant to 26 CFR §301.6109-l(d)(3), IRS can
only issue Taxpayer Identification Numbers
(TIN) to aliens. Consequently, SSNs may only
lawfully be used as a substitute for TINs in
the case of an alien. Since I am NOT an alien,
then I would be committing fraud to either
obtain or to use a Taxpayer Identification
Number from the IRS or to use an SSN in
place of a TIN.
“Nonresident aliens” not engaged in the “trade
or business” franchise such as myself are not
required to have or to use Social Security
Numbers in connection with any financial
arrangement or transaction pursuant to the
following and also 31 CFR §103.34(a)(3):
31 CFR §306.10
Taxpayer identifying numbers
are not required for foreign.

App. 66a.
governments, nonresident aliens
not engaged in trade or business
within
the
United
States.
international organizations and
foreign corporations not engaged
in trade or business and not
having an office or place of
business or a financial or paying
agent within the United States,
and
other
persons
or
organizations
as
may
be
exempted from furnishing such
numbers under regulations of
the Internal Revenue Service.
The recipient of this form is also reminded
that Social Security Numbers and social
security cards are the property of the U.S.
government and must be returned upon
request. 20 CFR $422.103fd'). As “public
property”, SSNs and Social Security Cards
may only lawfully be used in the conduct of
official U.S. government duties of a “public
officer” while on duty. This is confirmed by 5.
U.S.C, §552a(aK13)J which says that all those
entitled to receive any deferred retirement
benefit are “federal personnel”. It constitutes
embezzlement in violation of 18 U.S.C. $641 to
use such “public property” as either a private
person or in furtherance of a personal use or
benefit. It is also criminal violation of 18
U.S.C. §912: Impersonating a public officer to
falsely portray myself as a “public officer” in
possession of said “public property” (the SSN

App. 67a.
or Social Security Card) while appearing as a
private individual such as at this time. If you
are going to demand a number from a private
rather than public person such as myself, then
indirectly you also are asking me to
voluntarily assume the duties of a public
officer, in which case I demand compensation
in the amount of any tax and penalty
liabilities that might result PLUS $10,000 per
hour. Are you willing to provide said
compensation? If you do not answer, then you
have withdrawn your offer of “employment”
and agree that I am not your “employee” and
that I retain ALL of my rights.
I do not knowingly or consensually participate
in Social Security or any other public benefit
program'and I am NOT and never have been
legally eligible to. A compelled “benefit” is
NOT a benefit, but slavery craftily disguised
as public benevolence. This is exhaustively
explained in the document below, which you
are demanded to rebut in 30 days or forever be
estopped from later challenging:
Why You Aren’t Eligible for Social Security.
Form
#06.001;
http://sedm.org/Forms/FormIndex.htm
Pursuant to 5 U.S.C. §552a(b), you may not
lawfully maintain records about me without
my consent, which I do NOT give, have no
delegated authority from my God to give, and
have retroactively withdrawn by filing a public

App. 68a.
notice with the U.S. government and state
government.
Therefore:
1. Any records in your possession pertaining
to me other than the licensed and
copyrighted passport information included
on this and the attached DS-11 form are
being maintained ILLEGALLY and must be
destroyed.
2. You do not have my consent to store or use
any of my personal information other than
my name and physical characteristics in
Dept, of State computers.
3. You do not have my permission to share
any of my personal information with any
other federal or state agency or bureau or
private company, including the Internal
Revenue Service. If you do, you agree
personally to pay me $500,000 for each
wrongful or unauthorized disclosure.
If the number “000-00-0000” appears on the attached
DS-11 fonn, then it means that I don’t have a validly
issued SSN. Consequently, I ant not “federal
personnel” as indicated in 5 U.S.C. $552a(aY 13).
I reserve all my rights and waive none. UCC .1-308
and its predecessor, UCC 1-207. The ONLY method
by which I waive any of my Constitutionally protected
rights, including my privacy rights, is IN WRITING
on a government fonn, where all rights surrendered
by making said application for any benefit are

App. 69a.
explicitly and individually spelled out so as to give me
the lawfully required “reasonable notice” of the
specific conduct expected of me.
"Waivers of Constitutional rights not
only must, be voluntaiy, but must be
blowing, intelligent acts done: with
sufficient awareness of the relevant
circumstances
and
likely
consequences." [Brady v. US., 397
US. 742 (1970)]
"The rights of the individuals are
restricted only to the extent that
they
have
been
voluntarily
surrendered by the citizenship to
the agencies of government." [City
of Dallas v Mitchell, 245 S.W. 944]
"The question of a waiver of a
federally guaranteed constitutional
right is, of course, a federal
question controlled by federal law.
There is a presumption against the
waiver of constitutional rights, see,
e.g. Glasser v. United States, 315
U.S, 60, 70-71, 86 L.Ed. 680, 699,
62 S.Ct. 457, and for a waiver to
be effective it must be clearly
established that there was "an
intentional relinquishment or
abandonment of a known right
or privilege." Johnson v. Zerbst,
304 .U.S. 458, 464, 82 L.Ed. 1461,
1466; 58 S.Ct. 1019, 146 A.L.R.

App, 70a.
357." [Brookhart v. Janis, 384
U.S. 1; 86 S.Ct. 1245; 16 L.Ed.2d
314 (1966)]
I am not aware of any rights that I have
voluntarily
surrendered to any state
government or the federal government. If the
recipient of this application disagrees, he is
demanded
to produce court-admissible
evidence verified with a perjury oath of said
waiver of Constitutional rights within 30
days, or forever be estopped from asserting
any future right. If the government is
similarly going to claim that it cannot be
subject to a laches or equitable estoppel
defense arising out of failure to provide
demanded proof of surrender or right herein
demanded because of the assertion of
sovereign immunity, then the submitter
claims the SAME right of sovereign immunity
and hereby rescinds all past signatures on any
government form OTHER than this one and
retroactively withdraws his/her consent as
Sovereign. The U.S. government cannot
exercise any power not entrusted to it by ME,
and therefore can assert NO RIGHT that I
myself do not have.
The governments are but
trustees acting under derived
authority and have no power to
delegate what is not delegated, to
them.. But the people, as the
original fountain might take

App. 71a.
away what they have delegated
and intrust to whom they
please. ...The sovereignty in every
state resides in the people of the
state and they m,ay alter and
change their form, of government
at their own pleasure." [Luther v.
Borden, 48 US 1. 12 LEd 581
(1849)]
I remind the recipient that in accordance with
22 U.S.C. §212, the only thing I must have is
“allegiance” in order to obtain a U.S.A.
passport and that this document constitutes
court-admissible evidence of said allegiance.
The only kind of citizenship that carries with
it “allegiance” is that of a “national” as
described in 8 U.S.C. §1101(aY21')J which is
what I claim to be. Lack of allegiance is
therefore the ONLY legitimate criteria for
denying a person their BIRTHRIGHT of the
issuance of a passport and any other criteria
constitutes an interference with my right to
travel. I have a constitutional right to travel,
and that failure to issue a passport shall be
grounds for a lawsuit against the submitter
for deprivation of rights protected by the
Constitution. I will not allow you to convert a
right into a privilege that you can deny in
order to destroy my sovereignty.

App. 72a.
SECTION 5: EVIDENCE
THE APPLICATION

SUPPORTING

This section discusses the legality of the form
and the legal authority to ask for and receive
the information requested:
1.

The DOS Form IN-709-0! is not in
compliance with the Paperwork Reduction
Act, 44 U.S.C. Chapter 35, Subchapter I.
which requires:
1.1. A valid OMB Control Number.
1.2. An indication of whether providing the
information and all portions thereof is
“voluntary” or “mandatory”.
1.3. A regulation published in the Federal
Register describing the regulation
which gives rise to the collection of
each piece of information requested.
1.4. If the information is to be shared with
other agencies, the parties to whom it
will be disclosed and the use to which
the information will be put.
1.5. If the information requested will be
used for criminal law enforcement,
then a warning that you have a right
to withhold the specific information
that will be so used.

2. Government forms which do not comply
with the requirements of the Paperwork
Reduction Act are referred to in said act as
“bootleg forms” which the general public

App. 73 a.
need not comply with. Your Dept, of
State Form IN-709-01 fits that
description and therefore I am not
required to provide any of the
information listed on it. 44 U.S.C. §
3512 furthermore says that you can’t
penalize me for failure to comply with
your collection of information. Such a
penalty would include:
2.1. Denial of a passport, and
especially without explaining the
legal reasons for doing so.
2.2. Delay in processing a passport.
2.3. Imposing additional forms and
procedures for me to comply
with that EVERYONE is not
EQUALLY required to comply
with.
2.4. Financially penalizing me for
any aspect of the submission.
2.5. Refusing to refund application
fees if you reject the application
because of failure to disclose
information.
3. Warnings on the DOS Form IN-709-01
about possible delay in providing the
passport requested simply amount to
an unconstitutional bill of attainder,
which is a penalty by other than a
lawful court for the exercise of rights

App, 74 a.
protected by the Constitution. I
remind you that penalties are only
authorized for federal franchises, and
the exercise of my right to travel
cannot lawfully be converted into a
privilege subject to penalty, such as
the delay threatened by you for a
failure to disclose information that
you can’t even prove is necessary and
which
neither
the
forms
nor
regulations indicate is mandatory;
“It would be a palpable
incongruity to strike down an
act of state legislation which, by
words of express divestment,
seeks to strip the citizen of
rights guaranteed by the federal
Constitution, but to uphold an
act by which the same result is
accomplished under the guise of
a surrender of a right in
exchange
for
a
valuable
privilege
which
the
state
threatens otherwise to withhold.
It is not necessary to challenge
the proposition that, as a
general rule, the state, having
power to deny a privilege
altogether, may grant it upon
such conditions as it sees fit to
impose. But the power of the
state in that respect is not
unlimited, and one of the

App. 75 a.
limitations is that it may not
impose conditions which require
the
relinquishment
of
Constitutional rights. If the state
may compel the surrender of one
constitutional right as a condition
of its favor, it may, in like manner,
compel a surrender of all. It is
inconceivable that guaranties
embedded in the Constitution of
the United States may thus be
manipulated out or existence. ”
[Frost v. Railroad Commission,
271 U.S. 583, 46 S.Ct. 605 (1926)]
4. None of the regulations under 22 CFR Part
£1 indicate the specific information that
may be demanded on a passport
application, nor do they confirm that any of
the information requested on the form is
even relevant or necessary. In point of fact,
the ONLY thing you technically need in
order to lawfully issue a passport is proof of
allegiance, according to 22 U.S.C. §212.
None of the information you request on the
DOS Form IN-709-01 proves said allegiance
other than a birth certificate, an affidavit
or declaration from myself, and possibly an
affidavit from family members. Everything
else is superfluous and cannot and will not
be provided.
5. The DOS Form TN-709-01 asks for my
history of residences and/or domicile.

App, 76 a,
Nowhere in Title 8 of the U.S. Code or Title
22 of the CFR is domicile made a
prerequisite for obtaining a passport.
Therefore it is irrelevant. As an Israelite, I
am not allowed to have a domicile or
residence within the jurisdiction of any
man-made, government on earth. This is
exhaustively proven in the following form,
which you are demanded to rebut within 30
days or be found in agreement and estoppel
of: Why Domicile and Becoming a
“Taxpayer” Require Your Consent, Form #
05.002;
http://sedm.org/Forms/FormTndex.htm
6. The only law and the only government to
which I may have a domicile or residence
under God’s law is God’s government and
the Kingdom of Heaven on Earth. See Phil.
3:20, Heb. 11:13, 1 Peter 2:1, James 4:4,
Romans 12:2, 1 John 2:15, John 15:8-25.
The Bible says that God owns the Heavens
and the Earth, which leaves nothing left for
Caesar to rule or govern. See Psalms
89:11-13, Isaiah 45:12, Deut. 10:14. Would
you please explain to me what is left for
Caesar to rule or govern if we are to render
to Caesar that which is Caesar’s and the
Bible says that EVERYTHING belongs to
God? Christians are commanded to render
to Caesar that which GOD says belongs to
Caesar, not that which Caesar says belongs
to Caesar. The Bible also says it is a sin to
have an earthly ruler above me. The only

App, 77a.
kind of government I can submit to is a
government that is below, not above me.
This is exhaustively proven in 1 Sam.
8:4-20, 1 Sam. 12:12.
7. The DOS Form TN-709-01 lists sources of
information
that
are
exclusively
government, and the Bible says I cannot do
business
with
the
government
or
participate in any government franchises.
See: Delegation of Authority Order from
God
to
Christians.
Form
#10.008;
http ://sedm. or g/F or m s/Form In dex. htm
Therefore, I do not have and cannot provide
any public records that relate to any
government benefit or franchise without
violating my religious beliefs and being
compelled in violation of the First
Amendment to associate with and do business
with government. Such franchises and
benefits that I cannot participate in include:
social
security
numbers,
taxpayer
identification numbers, driver’s licenses,
marriage licenses, social security benefits,
Medicare, welfare card, professional licenses,
business licenses, tax returns, etc. By
including in your list of acceptable evidence
ONLY public/government information and
information
relating
to
government
franchises, you are:
7.1. Effectively compelling me to engage in
public/government franchises and

App. 78a.
thereby surrender
protected rights.

constitutionally

7.2. Compelling
me
to
associate
commercially and legally with a group
of people called a “state” that I do not
want to associate with or be compelled
to associate with in violation of the
First Amendment freedom from
compelled association.
8. I remind you that I have a Fourth
Amendment right to privacy, and that you
can’t turn the exercise of my right to travel
into an excuse to destroy my right of
privacy by revealing all the details you ask
for on the DOS Form IN-709-01 that are
basically irrelevant to the application
anyway. This is NOT a job application or an
application to become a federal “employee”,
“public officer”, or “taxpayer”, but simply a
notification of you by me, the Sovereign, of
my right to travel freely and a demand that
you not interfere with that right. It is
already humiliating enough that the
penalty for committing perjury on a
passport form could be 20 years in jail.
That penalty alone ought to be sufficient to
ensure the accuracy of the information I
provide to you. If that kind of a penalty for
providing false information isn’t sufficient
to guarantee the accuracy of the basic
information that I provide, then the
application process isn’t really about a

App. 79 a.
passport, but about human sacrifices to a
pagan idol in violation of my sincerely held
religious beliefs.
9. Passports may be a privilege for aliens, but
they aren’t a privilege for people born in
this country, and it is an act of
discrimination to impose upon me the
disabilities of alienage by lumping me and
a privileged permanent resident in the
same category.
10. The only reason I want or need a passport
is
simply to
freely
exercise
my
Constitutional and legal right to return to
the place of my birth. That is a natural and
inalienable right. Don’t abuse your
authority to issue passports by withholding
the issuance of them to persons who refuse
to participate in all government franchises.
That is discrimination that you will be held
personally liable for. Don’t try to convert
rights into privileges, because you are
violating the constitution to do so.
SECTION 6: APPLICATION REJECTION
INFORMATION
(To be completed by passport processing
center or agency upon rejection of passport
application)
Should you, the passport processing center or
agency, decide to reject my application, I
insist that you provide your full legal name
and
work
address
and
sign
the
correspondence under penalties of perjury

App. 80a.
pursuant to 28 U.S.C. §1746(2). Agencies
don’t reject applications, PEOPLE DO, and
these people are violating the Constitution
and my rights if they reject my application.
This section acts as a form for you to fill
out describing all of the reasons and
details surrounding any decision you might
make to reject this application. A rejection
of my application without disclosing the
reasons in detail by filling out and signing
this section as required shall constitute an
actionable tort on your part. Also, if you
send me an IN-709-01 form and demand
that I fill it out, explain why I shouldn’t
follow your example by similarly refusing
to fill out your forms since you won’t fill
out mine. It is a denial of the legal
requirement for equal protection and equal
treatment for you to apply different
standards to me than you apply to yourself
or to anyone else in this process. If you
won’t provide your information, then I
won’t provide mine on an IN-709-01 form
either. I’m not going to play legal “peek-aboo” with you and doing so just proves that
you KNOW you are involved in violating
my rights and exceeding your lawfully
delegated authority as a public servant or
agent of the government. Please write
LEGIBLY because this document could
become legal evidence in a Bivens Action
against you for deprivation of rights by an
officer or agent of the government.

App. 81a.
1. Definition of “United States” within the
term “U.S. citizen” upon which I am relying
from Section 7 of this form:
(Circle ONLY ONE. Item 3 is the default
answer if none provided)
1,
2.
3
2. Reason for Rejection:
(check all that apply)
□ Questions about consistency of information
provided in application (please specify in
detail):
□ Missing following information:
□ DS-11 form has been updated. New form
enclosed
□ Other (please specify):
3. Legal authority for rejection (statute
and/or regulation. Rejection is UNLAWFUL
if no legal authority provided):
8 USC§
22 CFR §
OTHER(s):
4. Things
I
advised
the
applicant
specifically to do against his wishes and
better judgment, and for which I assume
full liability for the consequences of:
□ Specify a Social Security Number or
Taxpayer Identification Number when
he/she specified that there is none

App. 82a.
□ Indicate a citizenship status or domicile
that is in conflict with the information
provided by the applicant on this form
5. Full Legal Birthname of rejecting officer:
6. Date and Place of Birth of rejecting
officer:
7. Workplace physical address of rejecting
officer: (NOTE: This is the place you
physically work and where you agree to accept
service of legal process. NO PO boxes
accepted.)
Address:
City:
State:
Zip:
Phone number:
Email Address:
8. Full legal birth name of supervisor of
rejecting officer:
9. Workplace physical address of supervisor
of rejecting officer: (NOTE: This is the place
you physically work and where you agree to
accept service of legal process. NO PO boxes
accepted.)
Address:
City:
State:
Zip:
Phone number:
Email Address:

App. 83a.
SECTION 7: RESOLVING DISPUTES
OVER MY STATUS BY THE RECIPIENT
OF THIS FORM
If the recipient disputes my status as
documented or denies my eligibility for a U.S.
Passport, then please also accompany your
response with the answers to the following
questions:
1. If you want to assert that the perjury
statement “without the United States”
under 28 U.S.C. §1746(1) is in error, please
show me a definition of “United States”
within Title 8 of the U.S. Code that
includes
expressly
the
exclusive
jurisdiction of any state of the Union. 8
U.S.C. §1101(,a')(361 defines the term
“State” as EXCLUDING states of the
Union.
2. Which of the following two “U.S. citizen”
statuses are you attributing to me, keeping
in mind that they are MUTUALLY
EXCLUSIVE jurisdictions and statuses?:
a. A statutory “citizen and national of the
United States” pursuant to 8 U.S.C. §1401?
b. A constitutional and NOT statutory
“citizen of the United States” described in
Fourteenth Amendment Section 1?
3. Which one of the three definitions of the
“United States” within the term “U.S.
citizen” are you assuming or referring to

App. 84a.
that are specifically identified by the U.S.
Supreme Court in Hooven and Allison v.
Evatt? You can ONLY choose one and not
multiple.
"The term 'United States' may be
used in any one of several senses. It
may be merely the name of a
sovereign occupying the position
analogous to that of other
sovereigns in the family of nations.
It may designate the territory over
which the sovereignty of the United
States extends, or it may be the
collective name of the states which
are united by and under the
Constitution."
[Hooven & Allison Co. v. Evatt, 324
U.S. 652 (1945)]
Below is a summary of each of the contexts
indicated above. Please identify the SPECIFIC
NUMBER from the table below that you mean
by “U.S.” within the term “U.S. citizen” as
used on the DS-11 passport application. Please
choose ONLY ONE number:
Table 1: Meanings assigned to "United
States" by the U.S. Supreme Court in
Hooven & Allison v. Evatt
# U.S. Supreme Court Definition
of
“United States” in Hooven
1. “It may be merely the name of a sovereign

App. 85a.
occupying the position analogous to that of
other sovereigns in the family of nations.”
Context in which usually used
International law
Referred to in this article as
"United States*”
Interpretation
“'These united States.” when traveling abroad,
you come under the jurisdiction of the
President through his agents in the U.S. State
Department, where “U.S.” refers to the
sovereign society. You are a “Citizen of the
United States” like someone is a Citizen of
France, or England. We identify this version of
“United States” with a single asterisk after its
name: “United States*” throughout this
article.
1. “It may designate the territory over which
the sovereignty of the United States
extends, or”
Context in which usually used
“National government” Federal law Federal
forms Federal territory ONLY and no part of
any state of the Union
Referred to in this article as
'United States
Interpretation
“The United States (the District of Columbia,
possessions and territories)”. Here Congress
has exclusive legislative jurisdiction. In this

App. 86 a.
sense, the term “United States” is a singular
noun. You are a person residing in the District
of Columbia, one of its Territories or Federal
areas (enclaves). Hence, even a person living
in the one of the sovereign States could still
be a member of the Federal area and
therefore a “citizen of the United States.” This
is the definition used in most “Acts of
Congress” and federal statutes. We identify
this version of “United States” with two
asterisks after its name: “United States**”
throughout this article. This definition is also
synonymous with the “United States”
corporation found in 28 U.S.C. §3002(15)(A).
1. “...as the collective name for the states
which are united by and under the
Constitution.”
Context in which usually used
“Federal government” States of the Union and
NO PART of federal territory Constitution of
the United States
Referred to in this article as
“United States***”
Interpretation
“The several States which is the united States
of America.” Referring to the 50 sovereign
States, which are united under the
Constitution of the United States of America.
The federal areas within these states are not
included in this definition because the
Congress does not have exclusive legislative

App. 87a.
authority over any of the 50 sovereign States
within the Union of States. Rights are
retained by the States in the 9th and 10th
Amendments, and you are a “Citizen of these
united States.” This is the definition used in
the Constitution for the United States of
America. We identify this version of “United
States” with a three asterisks after its name:
“United States***” throughout this article.
SECTION 8: AFFIRMATION
I declare under penalty of perjury under the
laws of the United States of America, from
without the “United States” pursuant to 28
U.S.C. §1746(11 that the foregoing and the
entire contents of this form and all those
attached to it are true, correct, and complete
to the best of my knowledge and belief.
/s/ Achashverosh Adnah AmmiyhiiwH
Achashverosh Adnah Ammiyhnwd
Date: November 5, 2018,

\A
r

App. 88a. Bl
________
Appendix H —Jj
E
LEGAL-NAME CORRECTION
DECLARATION & PUBLICATION (Fort
Mill, South Carolina-Republic) Affidavit
I, Achashverosh Adnah Ammivhuwd common
law ‘at will’ in propria persona (Pro Per) sui
juris previously & in the temporary future
known as “Oscar Lee Washington” but NOT
the corporate misnomer OSCAR LEE
WASHINGTON (misspelled in ALL caps) am
issuing Legal & Public notice of this Name
Correction,
Declaration
&
Publication
Affidavit establishing my true nationality as a
sovereign
Indigenous
Ancient
Hebrew
Israelite-American pursuant to Torah, Holy
Bible, United States Republican Constitution,
Universal Declaration of Human Rights &
United Nation Rights of Indigenous people
applicable to the Original, Ancient Israelite
Kingdoms/Jerusalem
tribes
who
also
inhabited Nation of North America.
If any Republic National in full life has any
lawful, objections to this Name Correction
then the issue should be sent or post to this
page inclusive of detail rationally describing
the proposed merits.
Nevertheless, knowing that NO individuals
could have any organic dispute to this
Affidavit after around 30 (Thirty) days of
posting this Public Notification, I will formally
consider this document to have complied with
necessary Rules of Evidence & authentication,
etc. “I am who my Most High God and I say I

‘i

App. 89a.
am & if I wasn’t then why would He or I say I
am”...
ALL UNALIENABLE RIGHTS RESERVED
WITHOUT PREJUDICE PURSUANT TO
THE UNIFORM COMMERCIAL CODE 1-308,
(1-207*) and 1-103.6, AT ARM’S LENGTH
ETC. I DO NOT OBLIGATE MYSELF TO
ANY
INFRINGING
CONTRACTS
OR
LIABILITIES..........
THE ISRAELITE DIVINE AND NATIONAL
MOVEMENT OF THE WORLD LEGAL
NOTICE!
NAME
DECLARATION
CORRECTION and PUBLICATION.
I, being previously Identify by the Union
States Society of North America - U.S.A.
under the colorable, Ward-ship name, Oscar
Lee Washington (or the defaming trade name
OSCAR LEE WASHINGTON), do hereby
refute the Fraud; make Public and Publish my
Corrected National Name; Declare and Affirm
my, true, ‘Proper Person Status’; and claim my
Rightful Social and Cultural Life of the State;
accord with my Israelite Nation of North
America-acknowledging my Birthrights.
Having Lawfully and Legally Obtained and
Proclaimed my Israelite Nationally and
Birthright ‘Name and Title’; in harmony with,
in association with, and in Accord with Divine
Law, the Customs; and the Laws, Rules, and
Usages of The Israelite Divine and National
Movement; being Original and Indigenous,
and bound to the North American Continent

App. 90a.
by Heritage, by Primogeniture; by Birthright;
by Natural Birth; by Freehold; and by
Inheritance.
Declared for the Public Record, I am
returning the European cognomen and
fictitious misnomer back to the Colonial
possessors of its pedigree. I am now Rightfully
Declaring, Publishing, and Proclaiming my
own Free National Name; Affirming my
Actual, Rightful, Common and Civil ‘In Full
Life’ Status; Conjoined to my Israelite
American Consanguine Pedigree and National
Honor.
Let it be Declared, Known and Resolved that:
I Am, Achashverosh-Adnah: Ammiyhuwd, ‘In
Propria Perona’ (being in my own proper
person), by birthright; WITHOUT THE
FOREIGN, IMPOSED COLOR-OF-LAW, OR
ASSUMED DUE PROCESS of the Union
States Society; pursuant to, but not limited to:
1. FREE ISRAELITE-AMERICAN: TORAH
HOLY BIBLE (Torah Holy Bible and
Birthrights of the Israelite Americans)
being
Achashverosh,
Adnah,
and
Ammiyhuwd,).
Wherefore,
Achashverosh-Adnah:
I,
Ammiyhuwd, being ‘Part and Parcel’
named herein, and by Birthright,
Primogeniture, and Inheritance, make a
Lawful and Legal Entry of Affidavit and
Public
Notification
of
Nationality

App. 91a.
Proclamation; Name Correction Claim;
Declaration, Affirmation, and Application;
Herewith Published for the Public Record.
“At Arm’s Length”
/s/ Achashverosh-Adnah-Ammiyhuwd
Achashverosh-Adnah: Ammiyhuwd flesh-and
blood live, breathing and living Man
South Carolina State
Lancaster County
For the purpose of verification only , on the 29th
day of May 2012, SIGNED, PUBLISHED AND
DECLARED
Achashverosh-Adnah:
by
Ammiyhuwd, personally and appeared before
me and proved to me on the basis of
satisfactory evidence to be the person whose
name is subscribed hereto and acknowledged to
me that he executed the same. Subscribed
before me this day. Witness my hand and seal
this 29th day of May . 2012.
/a/ Leslie A. Mills
Commission Expires
11-21-22 Seal:
Notary
Public
United
States
of
America/America

<r.

|
z.

'i

/^yTAnh\

o

4*

z

/

i

App. 92a
Appendix!
EF LAWFUL AMBASSADOR SOVEREIGN
& SELF DETERMINATION HEBREW
ISRAELITE AMERICAN NATIONAL
REPUBLIC UNIVERSAL DUAL NATIONAL
IDENTIFICATION
i
Title 18 USC$Z41

CHIEF

Hatted;

Title is use § 242 LAWFUL AMBASSADOH
SOVEREIGNS SELF 0ETE8MJMATTOV 1*
It!
HEBREW ISRAELITE AMERICAN 2-/
NATIONAL REPUBLIC
41J
UNIVERSAL DUAL NATIONAL IDENTIFICAjfi
■J'
VAo^hent
|C,Anp»!tijent
9*Aa#h*»fnt I

lights

IncareofiP
Non Domed
Valparafcjj

I
4

i

-r

JOr
The Cod*;
where
Com
(UCCJBPSij

m

mm

GTjfiV
W#:15

»dai

*V-

&

PwitKticatfi

fil'J

| Near{46384]

: -.mm

*;

AaWatJvil, a. ,t.
tVthoutprejKjfcjfUCC) id
UCCJ3-ipi(b} am
Ccrcnrutiaa^flf

m

1542

lovtSS ,

*’v)rrrL£i8trAc 112

Amendment
13* Airwadffi«ij14* Ameadnteai

OfY^*3urAi-flma

WMdl '«***<"
ade*rfc»l,,,’f*,fc*'« <= abrogate the Cotnnoa Law

m

ad!?^

EMuw 1» artlwainenaneatf™i«)i fa
mtVXilSU

a

......
^
28 US. Code §: 746 p)
J

App. 93 a.
Appendix J
United States Department of state
National Passport Center
44132 Mercure Circle
PO Box 1108
Sterling Virginia 20166-1108
December 19, 2018
Achashverosh Adnah Ammiyhuwd
2700 Valparaiso St 1542
Valparaiso, IN 46383
RE: 290264959
Dear Mr. Ammiyhuwd:

Thank

you
application.

for

your

recent

passport

It appears from the facts of your birth and
documents you submitted that you are a U.S.
citizen and entitled to a U.S. passport. In
accordance with the Fourteenth Amendment
of the Constitution of the United States, all
person born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States. As supreme
law of our land, it cannot be waived by
unilateral declaration except as otherwise
provided by law.
The statutes applicable to U.S, passports
provide that you may be issued a U.S.
passport showing you are a U.S. citizen. We
are not in a position to respond to or enter a
dialogue concerning any views which disagree

App. 94a.
with the Constitution or the citizenship laws
of the United States as interpreted by the
courts.
Therefore, please advise this office in writing
if you wish a U.S. passport be issued to you at
this time. It will show that you are a U.S.
citizen.
Because we have no authority to issue a
passport showing you as anything other than
a U.S. citizen, your application will be denied
unless we receive a response from you within
90 days.
To assist with processing your application, we
must receive the requested information
within ninety (90) days of the date shown on
this letter. If the information is not received
or is insufficient to establish your entitlement
to a U.S. passport, your application may be
denied and your citizenship evidence will be
returned. By law, the passport execution and
application fees, are non-refundable.
If you have any questions please contact the
National passport Information
Center:
1-877-487-2778 (TTY/TDD: 1-888-874-7793)
For general passport information or to check
the status of your passport application, please
visit us on-line at travel.state.gov.
Sincerely,

